<html>
<title> - CHEN GUANGCHENG AND GAO ZHISHENG: HUMAN RIGHTS IN CHINA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
        CHEN GUANGCHENG AND GAO ZHISHENG: HUMAN RIGHTS IN CHINA

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 9, 2013

                               __________

                           Serial No. 113-53

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
80-362                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2c4b5c436c4f595f584449405c024f434102">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Chen Guangcheng, Chinese human rights activist...............     7
Pastor Bob Fu, founder and president, ChinaAid Association.......    15
Ms. Geng He, wife of Chinese human rights lawyer Gao Zhisheng....    31
Mr. Jared Genser, founder, Freedom Now...........................    35
Mr. T. Kumar, director of International Advocacy, Amnesty 
  International..................................................    43

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Chen Guangcheng: Prepared statement..........................    11
Pastor Bob Fu: Prepared statement................................    20
Ms. Geng He: Prepared statement..................................    33
Mr. Jared Genser: Prepared statement.............................    39
Mr. T. Kumar: Prepared statement.................................    46

                                APPENDIX

Hearing notice...................................................    76
Hearing minutes..................................................    77
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Statement of the Honorable Frank Wolf, a 
  Representative in Congress from the Commonwealth of Virginia...    78
Mr. Chen Guangcheng: List of persecutors of Mr. Chen Guangcheng 
  and his family since 2005......................................    80
Pastor Bob Fu: 2012 Annual Report, Chinese Government Persecution 
  of Christians Churches in Mainland China.......................    84


        CHEN GUANGCHENG AND GAO ZHISHENG: HUMAN RIGHTS IN CHINA

                              ----------                              


                         TUESDAY, APRIL 9, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172, Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and I want 
to welcome all of you to this extremely important hearing. 
Today we are here to listen and learn from the brave men and 
women from China who have been and are at the forefront of 
advocating for freedom and human rights and against the tyranny 
and oppression of the state. Today we seek advice and counsel 
as to what can and must be done by the Congress, by the 
President, the American people, and all people of goodwill 
worldwide to mitigate the hate and gross mistreatment meted out 
by the Government of China against its own citizens.
    Today we appeal to Beijing, ease up, respect fundamental 
human rights and the sanctity of human life, and honor your 
commitments and the rule of law. Chen Guangcheng and his 
equally courageous wife Yuan Weijing have paid and continue to 
pay an extraordinarily high price for their benign defiance of 
a dictatorship that violates human rights with impunity and 
crushes human dignity. Not only have the Chens endured numbing 
isolation and unspeakable torture over the course of several 
years, but now as we all know in a pathetic display of PRC 
governmental revenge, Chen's nephew, Chen Kegui, languishes in 
a Chinese prison while other members remain at risk. 
Shockingly, young Chen Kegui has been brutally tortured and 
threatened, as Guangcheng notes today in his testimony, with 
life imprisonment if he appeals his conviction. Undeterred, Mr. 
Chen Guangcheng continues to gently raise his clear and 
consistent voice on behalf of all victims while pushing 
systemic reform of egregiously flawed political institutions 
and people who persecute and repress.
    Blind since childhood, Mr. Chen bore all the burdens and 
disadvantages that a disabled person faces in rural China. 
Confronted with the denial of his rights, he developed an 
intense interest in law and challenged the local government, 
winning his case. Hearing of Mr. Chen's success, other 
individuals in Shandong Province were inspired to seek his 
legal assistance in securing redress and vindication. Almost 
everywhere corrupt officials made and continue to make life 
miserable for those struggling to survive. Mr. Chen informed 
many of their rights and helped them seek durable remedies. He 
helped many of them see that the rule of just and compassionate 
law wasn't just for the privileged few but for everyone. 
Victimized, yet unbroken by beatings and torture, 51 months of 
nightmarish incarceration preceded by house arrest and followed 
by 18 more months of house arrest, cut short only by his 
escape, Chen Guangcheng tenaciously defended Chinese women and 
babies oppressed by China's draconian one-child policy. Mr. 
Chen's brilliant mind, his indomitable spirit and unimaginable 
courage exposed pervasive forced abortion, deemed a crime 
against humanity at the Nuremberg Nazi war crimes tribunal and 
was relentless in using his self-taught legal skills to protect 
the innocent, especially women. Unfazed by both the difficulty 
of the task or the inherent risks, Mr. Chen employed legal 
strategies to combat this insidious government cruelty toward 
women and children and argued that his clients in Linyi, and 
all women in China for that matter, have rights that prohibit 
such violence, that they, indeed, deserve better.
    Chen in China became and remains their hero. It took a 
blind man to really see the injustice of a population control 
program that makes most brothers and sisters illegal and to 
hear the desperate cries of Chinese women. It took a blind man, 
the great Chen Guangcheng, to open the eyes of a blind world to 
these human rights violations systematically inflicted on 
Chinese women.
    Mr. Chen's daring escape to the U.S. Embassy, his 
miraculous evasion of China's ubiquitous secret police en 
route, is the stuff of legend and superheroes. He offered 
dramatic testimony by telephone from hospital to two emergency 
hearings that I chaired and if it wasn't for Bob Fu, we would 
have never gotten through to him. Bob placed those calls during 
the course of a couple days, finally got through, and we heard 
Chen's voice right here in this room speak out and ask for 
freedom and ask to come to the United States.
    Geng He is here today to remind us and the world of another 
brave and extraordinary hero, her husband Gao Zhisheng. With 
great love and a broken heart, this remarkable woman has worked 
unceasingly to secure the freedom of her husband. Gao Zhisheng 
is an attorney who played a leading role among Chinese human 
rights lawyers that defended those that the Chinese Government 
persecutes most harshly, conducting their defense by demanding 
that the prosecution conform to law. Mr. Gao is a 
quintessential example of a human rights defender. In 2005 
after he took on politically sensitive cases, Mr. Gao wrote 
open letters to both the National People's Congress and the 
leadership of the Chinese Communist Party calling for an end to 
the torture of members of persecuted religious groups. Mr. 
Gao's license to practice law was subsequently revoked, his law 
firm shut down, and his family placed under police 
surveillance. In August 2006, Mr. Gao was apprehended and then 
charged with ``inciting subversion.'' He was convicted and 
given a suspended 3-year sentence with 5 years probation, 
effectively placing him under house arrest.
    In September 2007, Mr. Gao wrote an open letter to the 
United States Congress in which he described widespread human 
rights abuses in China in which he called China's birth control 
policy the largest genocide in the history of mankind and 
related the government's harsh treatment of him and his family. 
He was consequently detained and tortured for 50 days. His 
captors called him a traitor, and they warned him that he would 
be killed if he told anyone about being abducted and tortured.
    In February 2009, Mr. Gao was forcibly taken away from his 
home in Shaanxi Province by public security personnel. He 
briefly resurfaced only in late March 2010, more than a year 
later. During his brief reappearance, however, Mr. Gao gave 
several interviews to foreign media, disclosing the details of 
his torture. The next month he disappeared again.
    In testimony at a Congressional-Executive Commission on 
China hearing that I chaired last February, Geng He said that 
for her daughter Grace, Gao Zhisheng's absence has caused her 
severe emotional anguish. She often dreams that her father is 
dead. She said, my son has tears in his eyes on Father's Day. 
We were forced to endure rumors that the guards had tortured 
Zhisheng to death.
    In late 2011, Gao was secretly transferred to a distant 
Shaya County prison in the Aksu district of Xinjiang. He has 
seen his family only twice in 16 months and for only 30 minutes 
each visit. Police have prohibited family members from asking 
him any information about him, but again, in the account of Mr. 
Gao's torture that was made public by the Associated Press in 
January 2011, he disclosed to the reporter the excruciating 
details of his detention and said, in part, that the police 
stripped him bare and pummeled him with handguns in holsters. 
For 2 days and nights they took turns beating him and doing 
things he refused to describe. He recalled that for 48 hours 
his life hung by a thread. Authorities reportedly threatened to 
kill Mr. Gao and to dump his body in a river and authorities 
taunted him by saying, ``You must forget that you are human.'' 
Well, we don't forget, and to President Xi, we will not forget 
Gao Zhisheng, not now, not ever, and we appeal to you to 
release him, to ease up, and respect fundamental human rights.
    I now yield to my friend and colleague Ms. Bass for any 
opening comments she may have.
    Ms. Bass. Thank you. Thank you, Mr. Chairman. Thank you for 
convening today's hearing on a topic of utmost importance. You 
continue to demonstrate your commitment to human rights issues, 
particularly in China. I want to offer my gratitude to today's 
witnesses for your testimony. I am particularly pleased that 
Mr. Chen was able to join us, and I hope that you found some 
level of peace during your stay here. Mr. Chen, I don't have to 
remind you that at this time last year we all watched news 
reports of your situation with deep interest. While you are 
safely with us today, your extended family and fellow 
countrymen and women experience terrible human rights 
violations that remind us that there is still work left to do.
    The current human rights situation in China is precarious. 
An increasing number of individuals and organizations risk 
police monitoring, detention, and arrest simply for seeking an 
open, free, and just society. Internet and press censorship are 
widespread, corruption continues to run rampant, and minority 
social groups often lack access to legal redress. The measure 
and health of a society is based on the treatment of its 
citizens, and it is my hope that as China continues to expand 
its global presence that it will openly and honestly address 
human rights as a top government priority. It is the 
responsibilities of governments everywhere to uphold the basic 
rights of liberty, life, and justice. Whether we are American, 
Chinese, or otherwise, it is our duty as representatives of 
government to ensure that our citizens never have to suffer 
persecution or censure for what they believe.
    International compacts such as the Universal Declaration of 
Human Rights and the International Covenant on Civil and 
Political Rights share a vision of a free world in which every 
man, woman, and child can practice their beliefs openly, 
freely, openly call for transparent and responsible government, 
and have access to justice systems that uphold the rule of law 
for all parties. Such compacts must guide us in ensuring that 
the rights of all people are upheld. One critical way to 
promote global human rights is by investing in the United 
Nations. I am strongly committed to ensuring and preserving 
this participation.
    It is my hope that our witnesses will not only give us a 
better understanding of the situation in China but will also 
offer constructive ways that we can move toward the vision of 
an open, free, and just global society. Thank you, and I look 
forward to today's testimony.
    Mr. Smith. Ms. Bass, thank you very much for your eloquent 
statement. I would like to now yield to Mr. Meadows.
    Mr. Meadows. Thank you so much, Mr. Chairman, for holding 
this hearing, and truly for each one of you to show up and 
testify and to illuminate this very disturbing trend. As we 
have a global economy, it is so important for us to look at the 
global situation as it relates to human rights. We can remember 
back in the 1700s there was a theologian and someone fighting 
against human rights violation of slavery in England, back then 
by the name of John Newton, and he penned a hymn called Amazing 
Grace which says I was blind but now I see. How fitting it is 
today to have someone who is blind who is helping us see the 
atrocities that are happening even today in this global 
economy, and I just want to thank you for your boldness, for 
your courage to stand up and make sure that those who have no 
voice have a voice today, and I look forward to your testimony.
    I yield back, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Meadows.
    Mr. Bera?
    Mr. Bera. Thank you, Mr. Chairman, and thank you for 
calling this hearing. I share your concern over human rights 
abuses as well as your commitment to fight these abuses 
worldwide, and one fundamental right is freedom over one's own 
body and the right of women to control their own reproductive 
decisions. That is an issue of individual liberty. As a doctor, 
this issue is particularly important to me. I took an oath to 
answer my patients' questions, to provide them with various 
options, to explain the risks and benefits of these choices, 
and then empower them to make the best decision that fits with 
their own faith, family, and personal circumstances. This is 
fundamental to the doctor-patient relationship. That is why I 
have concerns about China's one-child policy. It goes against 
the fundamental value of individual liberty and freedom. While 
forced abortions and sterilization are illegal in China, they 
still happen with frequency, and the one-child policy 
perpetuates these practices. All champions of human rights 
should openly condemn China's one-child policy and the illegal 
practices of forced abortion and coerced birth control reported 
in some localities. The continued oppression of Chinese 
families through coercive reproductive policies must end, but 
claiming that the U.N. Population Fund supports these coercive 
practices and using the claim to oppose U.S. support of 
international family planning programs is disingenuous, 
unmerited in valid global health policy. In fact, the best way 
to promote the basic human right of individual choice is to 
invest in programs like the United Nations Population Fund.
    UNFPA's programs save and improve the lives of millions of 
women and men worldwide. They enable couples to voluntarily 
determine the timing, number, and spacing of their children and 
voluntary birth control. Independent experts have confirmed 
that UNFPA does not support the one-child policy in China, nor 
does it support forced sterilization. UNFPA supports increased 
access to reproductive health services, improved approaches to 
adolescent reproductive health, and safe pregnancy and 
delivery. Its programs have reduced maternal mortality, 
provided emergency assistance in refugee situations, and 
prevented and treated HIV and AIDS. As a doctor and public 
health expert, this is good public health policy.
    The U.S. should remain a strong supporter and leader within 
the global community in order to best promote women's rights 
and the freedom of every woman to make personal decisions about 
her health and her future. Individual liberty and freedom are 
American values that are worth fighting for, both here 
domestically and throughout the world.
    Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thank you. I would like to now yield to Mr. 
Stockman.
    Mr. Stockman. Mr. Chairman, I just want to briefly say that 
I saw firsthand a clip of a late term abortion in China which 
was forced against the mother's will, and you can't watch this 
clip. One day I hope we can introduce it as evidence without 
weeping and crying. The mother was heartbroken. She wanted the 
child. And then they threw the dead baby on to the bed because 
they weren't allowed to pay for the burial and threw it on her 
bed and said you have to pay for it.
    I am so honored that we are having this hearing and thank 
you, Mr. Chairman, for opening it up for many of the people. I 
hope the United States will tune in and listen to what is going 
on in China. I yield back the balance of my time.
    Mr. Smith. Thank you, Mr. Stockman.
    Mr. Weber.
    Mr. Weber. Thank you, Mr. Chairman. I don't have a lot to 
add except to say thank you to Mr. Chen. Helen Keller once said 
that there is none so blind as he who will not see, and I do 
appreciate and echo my colleague Mark Meadows' comments about 
we are glad he is here to help us see. We look forward to the 
testimony and I yield back.
    Mr. Smith. Thank you very much. I would like to now yield 
to the co-chairman of the Tom Lantos Human Rights Commission 
but also the chairman of the Subcommittee on Commerce, Justice, 
Science, and Related Agencies of the House Appropriations 
Committee, Congressman Frank Wolf, who has been a long-time 
leader in the area of human rights, especially as it relates to 
China.
    Mr. Wolf. Thank you, Mr. Chairman. I will just submit my 
statement. I thank you for having the hearing, and I want to 
thank Mr. Chen and the rest of the witnesses for being here, 
and I look forward to hearing what they have to say. I yield 
back. Thank you.
    Mr. Smith. Thank you very much, Chairman Wolf.
    Let me introduce our witnesses in the order that I would 
ask them to present their testimony, beginning first with Chen 
Guangcheng. As we all know, blind from an early age and self-
taught in law, Mr. Chen is frequently described as a barefoot 
lawyer who advocates for the victims of forced abortion and 
sterilization and the welfare of women, the poor, and for those 
who are disabled.
    On April 22, 2012, Mr. Chen escaped house arrest and fled 
to the U.S. Embassy in Beijing. After negotiations with the 
Chinese Government, he left the Embassy for medical treatment 
on May 2, and on May 19, Mr. Chen and his wife and children 
were granted U.S. visas and departed Beijing on a commercial 
flight, arriving in New York City on the same day. He currently 
resides in New York City with his family and is a huge giant 
when it comes to human rights advocacy, as we all recognize 
around the world.
    We will then hear from Pastor Bob Fu, who is one of the 
leading voices in the world for the persecuted church in China. 
He was born and raised on mainland China, he graduated from the 
School of International Relations of People's University in 
Beijing. He later taught English to Communist Party officials 
at the Beijing Administrative College and Beijing Party School 
of the Chinese Communist Party from 1993 to 1996. He pastored a 
house church in Beijing until he and his wife were jailed for 2 
months for what was called illegal evangelism in 1996. Mr. Fu 
and his wife Heidi fled to the United States as religious 
refugees in 1997. Mr. Fu founded the ChinaAid Association in 
order to draw attention, international attention to China's 
gross human rights violations against house church Christians. 
Pastor Fu is a research Ph.D. candidate at Durham University, 
and he has been awarded a number of important citations for his 
work on behalf of human rights.
    We will then hear from Geng He, who is the wife of human 
rights lawyer Gao Zhisheng. Ms. Geng completed her university 
studies in accounting in China. She and Gao married in August 
1990. Between 2000 and 2006 she worked as a paralegal and 
accountant at a Beijing law firm, a law firm founded and 
directed by her husband. In March 2009, a month after Chinese 
officials reportedly detained her husband, Ms. Geng escaped 
from China with their two kids. Since arriving in the U.S., she 
has advocated tenaciously on behalf of her husband and other 
victims of human rights violations in China through interviews, 
appeals, and appeared before the Congressional-Executive 
Commission on China last February. So thank you for coming back 
to again appeal for your husband.
    We will then hear from Jared Genser, who is the founder of 
Freedom Now, an independent nonprofit organization that works 
to free prisoners of conscience worldwide. Mr. Genser has 
taught semester-long seminars on the U.N. Security Council at 
the Georgetown University Law Center and the University of 
Michigan and the University of Pennsylvania Law Schools. His 
pro bono clients have included former Czech Republic President 
Vaclav Havel and Nobel Peace Prize Laureate Aung San Suu Kyi, 
Liu Xiaobo, Desmond Tutu, and Elie Wiesel. Mr. Genser holds a 
BS from Cornell and an MPP from Harvard's John F. Kennedy 
School of Government, and a JD, cum laude, from the University 
of Michigan Law School. He is also a member of the Council of 
Foreign Relations and is also representing Mr. Chen's nephew as 
well as Gao Zhisheng.
    We will then hear from a man who is no stranger to this 
committee, a good friend, T. Kumar, who is the director for 
International Advocacy at Amnesty International USA. Mr. Kumar 
has served as a human rights monitor and as a director of 
refugee camps around the world. He often testifies before the 
Congress and lectures at the Foreign Service Institute, where 
U.S. diplomats are trained. He has also served as a professor 
at Washington College of Law's Humanitarian and Human Rights 
Academy. He has monitored elections with former President 
Carter around the world and served as judge of elections in 
Philadelphia. He also served as a consultant to the U.N. Quaker 
Mission. Mr. Kumar was a political prisoner for over 5 years in 
Sri Lanka for his peaceful human rights activities. He started 
his legal studies in prison and eventually became an attorney 
at law and devoted his entire practice to defending political 
prisoners.
    The floor is yours, Chen Guangcheng.

STATEMENT OF MR. CHEN GUANGCHENG, CHINESE HUMAN RIGHTS ACTIVIST

    [The following testimony was delivered through an 
interpreter.]
    Mr. Chen. The Honorable Chairman Smith, honorable members 
of the Committee on Foreign Affairs, ladies and gentlemen, 
friends, greetings. This room makes, helps me remember things 
from the past. I am very grateful that this year I am actually 
here. I request to include this list of names of persecutors to 
be excluded from entering the United States and be reinforced. 
The names are--[holding up paper with names listed]. The 
officials whose name are on this list have continuously, have 
continuously in the past persecuted me and my family.
    These corrupt officials, they have this blood on their 
hands in all these forced abortions, 130,000.
    Last year around this time my entire family was in the 
midst of grave danger. At the end of April 2012 I escaped from 
the valley of the shadow of death and after multiple twists and 
turns, I fled to the U.S. Embassy in Beijing to seek emergency 
refuge from danger.
    On May 2, after Sino-U.S. negotiation had reached an 
agreement to guarantee my safety, I left the U.S. Embassy in 
Beijing. At that time the U.S. officials taking part in the 
negotiations told me that the agreement they had reached would 
be written down in Sino-U.S. diplomatic documents.
    My main requests were contained both in my letter to then 
Premier Wen Jiabao and in my prerecorded video that was 
released to the public. The requests in short were this: An 
immediate end to all illegal acts of persecution against me, my 
family members, and my supporters, protection of all our civil 
rights, and a thorough investigation into the illegal and 
criminal acts of persecution by the Shandong authorities over 
many years against me and my family and a public resolution to 
the matter.
    Regardless of how high ranking these officials involved 
were or how many officials were involved, if they had committed 
a crime, they must be held accountable. And compensation should 
be made for the losses incurred. Regrettably, to date, not only 
has the Chinese central government not honored its commitment 
to the U.S. Government, it has instead illegally detained and 
put on trial my nephew Chen Kegui and on November 30, 2012, 
convicted Chen Kegui on the charge of so-called intentionally 
inflicting injuries and sentenced him to a prison term of 3 
years and 3 months. Moreover, Chen Kegui has been sent to the 
same prison in Linyi City where I was tortured when I was 
illegally sentenced on trumped-up charges in 2006.
    On April 26, 2012, at midnight, after local government 
officials discovered that I had escaped, the deputy Communist 
Party secretary Zhang Jian of Shuanghou who was in charge of 
politics and law led a few dozen club wielding men in climbing 
over the courtyard wall of my elder brother's home. They broke 
the lock of the courtyard gate from inside and letting in more 
men and broke down all the doors in the house. They let in more 
men after they broke the lock. They dragged my elder brother, 
who was still in his pajamas, from his bed, put a black hood 
over his head and twisted his arm and stuffed him into a 
vehicle and took him to the criminal police section of the 
Yinan County Public Security Bureau. No legal procedures were 
enforced. They tortured him for several dozen hours. According 
to the accounts of some residents in the vicinity of the police 
station, they overheard my elder brother's screams as they 
tortured him that night. They were still looting my elder 
brother's home at the time. They beat Chen Kegui and his mother 
Ren Zongju in different rooms and they grabbed Ren Zongju's 
hair and beat her so badly. Kegui was beaten in so many places 
and there were bruises over his body.
    As a last resort he, in order to protect himself, Chen 
Kegui grabbed a knife in order to protect himself against the 
persecutors. Kegui was not actually attacking them. He was 
simply telling them that if you continue to beat me, I will 
have to counter attack, but Zhang Jian, the head of the 
Security Bureau, told the men around him to contain Kegui at 
the time. The club-wielding men attacked Kegui and tried to hit 
his head. Instead they missed him and then the club actually 
hit the table with a TV on it. The TV was smashed. In this kind 
of a situation Kegui responded and reacted and then scratched 
some of the men that were in the house with a knife. Kegui 
reported this incident to the police but the police never came. 
Later on they also beat up Kegui's mother, who was actually 
taking care of her grandson who was having a fever. They 
grabbed her by her hair and grabbed her all the way to the 
floor and started beating her. My sister-in-law was beaten to a 
point, she yelled, ``Help, help'' and this man said, ``So what 
does it do that you scream help?'' The guards, since then the 
guards just continued to stay in the house. They stay on the 
sofa, on the bed, and they were not letting any citizens in the 
village to come in. There were thugs everywhere with clubs in 
their hands. The trumped-up charges were changed from 
attempting murder to intentionally inflicting injuries. He was 
cruelly tortured during this time, and while he was in prison 
he lost around more than 20 kilograms. Ma Chenlian and Yi 
Chuandong, the leader of the Security Bureau, threatened Chen 
Kegui many times while he was in prison. If you appeal you will 
be sentenced to life in prison, but if you listen to me, your 
sentence may be lighter and the lives of your children and your 
parents are in our hands. If you don't listen to us, once you 
are released from prison, you may never see them again. In 
light of this scenario, Chen Kegui decided not to appeal. The 
parents, Kegui's parents were contained in the National 
Security Bureau's car, vehicle, and they were not allowed to 
leave the vehicle. The pretext was that they were witnesses and 
they are not supposed to leave the vehicle, but later on they 
were not actually allowed to testify as witnesses. Up until now 
Chen Kegui is still under the threat that if he appeals he will 
be sentenced to life in prison.
    In February, Chen Kegui told the world about what had 
happened to him and then he was threatened. On March 7 an 
official from the local family planning office, Xu Xicai, was 
asked by the local party committee leaders to go to the local 
kindergarten to remove Chen Kegui's 4-year-old son. Fortunately 
on that day, Kegui's father, which is my eldest brother Chen 
Guangfu, was one step ahead of him. When the principal of the 
school went, when they went to ask Xu Xicai who did this, Xu 
Xicai said it was the Communist Party secretary who asked him 
to do it.
    On the morning of March 11, if I remember correctly, my 
brother Guangfu was taking the child to the school. They were 
followed by a man in a helmet. This is probably what they meant 
when they said that their lives are in their hands, my family's 
members' lives are in the hands of the authorities. Another 
child of a legal defender was also taken away about 9 days 
after my brother's son was almost taken. As you can see from 
the case of my brother, Gao Zhisheng's child being taken, and 
various other rights defenders children being taken, you can 
see that this is actually a planned incident. It was planned by 
authorities.
    We cannot continue to tolerate the Chinese Communist 
authorities in continuing to go back on their words and 
deceiving the international community at will. When the Chinese 
Communist Central Party Committee can act like this in breaking 
its promises to me, to the United States, and to the whole 
world, and when it can willfully break agreements in a case 
that has attracted the world's attention, how can we expect it 
to improve the human rights situations in other areas and to 
take up its international responsibilities and obligations? The 
Chinese leaders, they have the title as leaders, but in fact 
they are thieves and robbers. We cannot--as Chinese citizens, 
we cannot tolerate they kidnap the country anymore. They 
restrict freedom of speech, they restrict freedom of movement. 
We should break down the wall that the Chinese Communist 
Government has erected.
    I hereby request, Mr. Chairman, the House Committee on 
Foreign Affairs, the House Committee on Oversight and 
Government Reform, and other related committees to formally 
obtain from the relevant departments of the administrative 
authorities and publish the written and oral diplomatic 
agreements between China and the United States with regard to 
this incident of mine, including my letter to Premier Wen 
Jiabao that I wrote while I was in the U.S. Embassy. I hereby 
urge the U.S. Government to solemnly demand that the Chinese 
Communist leaders do as they promised. Mr. Chairman, I hereby 
request that this testimony and other written documents I 
provided be entered into congressional records. Thank you very 
much.
    [The prepared statement of Mr. Chen follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Chen, thank you very much for your 
extraordinarily powerful and historic testimony. I can assure 
you we will follow up on your request and do everything 
possible to get the administration to be forthcoming and to 
provide those documents about your, as you called it, your 
incident, and again thank you for, and I hope the press will 
convey this to the world, including the American public, this 
retaliation against families and against children. Not only are 
children deemed disposable via the one-child-per-couple policy, 
but the way that the Communist dictatorship hurts the 
dissidents the most is by hurting their families, and you have 
in a very powerful way reminded us of that with very specific 
examples of your own family, including your nephew. So thank 
you.
    I would like to now yield to Pastor Fu.

  STATEMENT OF PASTOR BOB FU, FOUNDER AND PRESIDENT, CHINAAID 
                          ASSOCIATION

    Pastor Fu. Mr. Chairman and honorable members of this 
committee, thank you for conducting this important hearing. My 
friend Mr. Chen Guangcheng just recalled what had happened 
barely a year ago while he was hearing the desperate cries from 
the Chaoyang Hospital. The first night Mr. Chen walked out of 
the U.S. Embassy and the next morning I was here in this 
hearing room testifying with a cell phone that enabled Mr. Chen 
to speak to you and this committee and to the American people 
and to the world about his real intention.
    The overall situation in mainland China in the past 3 
months has been worrying, from the serious air pollution in the 
capital city of Beijing, the large number of dead pigs that 
polluted the Yangtze River, and other incidents highlighting 
the rapid deterioration of China's natural environment to the 
situation for freedom of religion, the rule of law, and basic 
human rights that continues to present a grim picture. They all 
indicate that the Hu Jintao-Wen Jiabao political agenda still 
persists, dominating everything. This being the case, even 
though Xi Jinping's administration now holds political power in 
China, people still have reason to worry, do we have to wait 
another 10 years before seeing progress in China's human rights 
record and the rule of law?
    The wretched state of freedom of religion and the rule of 
law and the basic human rights. First of all, the persecution 
suffered by house churches in China is just one example. In the 
past 3 months there has been a troubling series of persecution 
cases. They occurred in over 10 provinces and two 
municipalities directly under central government jurisdiction, 
including Beijing, Shanghai, Heilongjiang, et cetera. One of 
the cases is Beijing's Shouwang Church, now going into its 
third year of being forced to hold outdoor worship services, 
which it began doing on April 10, 2011. Shouwang believers have 
been arrested more than 1,000 times and there have been more 
than 800 short-term detentions. Their senior pastor, Pastor Jin 
Tianming, and some church leaders have been under long-term 
house arrest since April 2011 without stop. In 2011 the Chinese 
Government issued two important secret documents aimed at 
attacking the Christian faith that were directly responsible 
for the systematic escalation in the persecution of churches 
that has continued to this day. In September 2011 at the so-
called Patriots in Christian Circles training class held by the 
State Administration for Religious Affairs, a secret document 
jointly issued by the State Administration for Religious 
Affairs and the Ministries of Public Security and Civil Affairs 
was circulated that detailed a plan to eradicate house churches 
in 10 years. Of course, as we all know, even the most 
conservative estimate on the number of Chinese Christians is 
more than 18 million. I don't think they will be successful. Of 
course, they are going to try anyway.
    Last year China Aid Association obtained the so-called 
suggestions for doing a good job of resisting foreign use of 
religion to infiltrate institutes of higher education and 
preventing campus religious activities, the so-called Document 
No. 18, jointly issued on May 15, 2011, by six ministries of 
the Chinese Communist Party's Central Committee. The purpose of 
this secret document was to prevent and attack the spread of 
the Christian faith on campuses. At the same time, the Chinese 
Government continues to employ strict control measures over 
Catholicism, continuing to ordain clergymen without Vatican 
approval, which is a serious interference in the internal 
religious affairs of the Vatican.
    In 2012 the government forced Bishop Ma Daqin, the Bishop 
of Shanghai, to disappear because he had openly expressed his 
loyalty to the Vatican. His whereabouts to date remain unknown. 
In addition, the tragedy of the self-immolation of Tibetan 
lamas and nuns continues to play out, demonstrating the 
persistent worsening of religious freedom in Tibet.
    On the rule of law, in accordance with the principle held 
by the Hu-Wen administration that maintaining stability was of 
paramount importance, the National People's Congress on March 
14, 2012, passed an amendment to the Criminal Procedure Law 
that went into effect on January 1 this year. One of its 
articles, Article 73, provides the legal basis for public 
security agencies to secretly arrest and detain citizens under 
the pretext of so-called residential surveillance. This is a 
serious step backwards in the rule of law in China. In January 
of this year the Public Security Ministry announced that it was 
suspending the labor camp system. I hope that they will 
practice what they said, not only suspending but to stop 
immediately this evil system. In its treatment of petitioners, 
a vulnerable group, the government continues to be as brutal as 
ever, arresting them, locking them up in ``black'' jails, 
beating them, implicating friends and relatives, and employing 
other illegal measures. Furthermore the Internet freedom is 
still harshly restricted. In March the SSH, representing the 
security shell network protocol for secured data communication, 
was blocked, and this is important evidence that freedom to use 
the Internet has been further restricted. Mr. Chen repeatedly 
called to push down Beijing's Internet Berlin Wall. 
Unfortunately, I think Western democracies have done too little 
and too late to counter the Internet circumvention. You can 
read the latest article in The Economist magazine: Instead of 
becoming a tool for freedom of information, the Communist 
regime in China has used the Internet and its censorship to 
build a wall to be a master of control. For every $1,000 in 
China that was spent to censor the information on the Internet, 
in the West, especially in the United States, we only spend $1, 
$1 to $1,000. I think we certainly can do more to promote the 
Internet freedom, along with my friend Mr. Chen and many 
dissident friends, as well as the millions of Chinese people of 
faith. When the Internet, China's Internet Berlin Wall falls, I 
think that will be the day the freedom of expression, freedom 
of religion, freedom of association will come, and I think the 
democracy in China will come also very soon.
    And the basic human rights on the bloody cases in China's 
forced, forcefully enforced one-child family planning policy 
and forced demolition of residential homes and relocation of 
residents continue to take place. And on the forced family 
planning, even in the last month, the ministry of public health 
publicly announced the so-called achievements of the family 
planning policy in the past 40 years. Three hundred and thirty 
million abortions performed on Chinese women. What is really 
distressing is that these bloody numbers continue to climb, and 
that the majority of those abortions were forced on the women 
by the government. In the United States, you can be pro-life, 
pro-choice. As Congressman Mr. Bera said, you don't need to 
agree on everything here. But one thing is very clear, forced 
abortion is not a choice. On March 13, a woman in Henan 
province who had had a forced abortion was found hanged at the 
local family planning office with suspicious injuries all over 
her body. And just this month, we just reported yesterday there 
is woman called Shen Hongxia. She already had two children. And 
when she went back for family visit from another work unit and 
she was captured and then she was forced to do the forced 
sterilization. And even though her doctors--and we have two 
ultrasounds and various methodologies showed and warned the 
family planning official who kidnapped her and told the family 
planning official it will be deadly for her to endure this 
forced sterilization.
    They did it anyway that day on March 19. And a few hours 
later she was found dead. And we have been advocating on behalf 
of the following people whose cases have representative values, 
besides the cases of attorney Gao Zhisheng and Mr. Chen Kegui. 
And I want to mention another case. It is Mr. Zhu Yufu. At the 
time of Arab Spring, Zhu Yufu, a Christian dissident based in 
Hangzhou Zhejiang Province, wrote a poem and posted on the 
Internet to encourage people to strengthen their thinking. As a 
result, he was summoned by police on March 5, 2011, and 
subsequently in April he was sentenced to 7 years for one poem 
for the so-called inciting subversion of state power.
    Mr. Chairman, today we have three of Mr. Zhu Yufu's family 
members who just recently escaped from China because in their 
last visit in November of last year, they saw their brother, 
60-year old Mr. Zhu Yufu was dying. So they were racing to 
rescue their family members by leaving everything behind in 
China.
    So I want you to recognize them. And they are sitting 
behind me. Mr. Zhu Qiaofu, Mr. Zhu Xiaoyan, and Miss Zhu 
Yanmin. They are three brothers and sisters of Mr. Zhu Yufu. So 
I hope Members of Congress and the media could help. I made the 
motion for immediate help. This is a life-and-death decision, a 
moment of time. I have escorted them in the past few days, 
talking with the staff of the Members of Congress. And the 
horrible stories surrounding the family of this brave man, Mr. 
Zhu Yufu has already spent 11 years imprisonment for his 
democracy activities. And I also request that the addendum to 
my written testimony be included.
    And including, in addition to the above, there are three 
other people worth our attention. Mr. Wang Bingzhang case and 
Mr. Peng Ming were prominent dissident leaders who were both 
kidnapped by the Chinese agents in Vietnam and in Burma in 2002 
and 2005, respectively. Both of them are serving life in 
prison.
    A third person, of course, is the wife of Nobel Peace Prize 
laureate Liu Xiaobo, Ms. Liu Xia, who has been under house 
arrest since 2010 without any freedom of movement. And the 
following other--the continuing arbitrary detention, the long-
time imprisonment of other prominent prisoners of conscience, 
including Mr. Alimujiang Yimiti from Xinjiang, Mr. Liu Xianbin 
from Sichuan, Ms. Yang Rongli from Shaanxi province, Professor 
Guo Quan from Jiangsu province, Mr. Li Bifeng from Sichuan, Mr. 
Chen Wei from Sichuan, and Mr. Chen Xi also from Sichuan.
    I want to also point out we just received yesterday the 
information from the wife of Mr. Chen Xi. She learned that her 
husband, Mr. Chen Xi, also a prominent democracy activist, was 
sentenced for 7 years during the Jasmine Revolution in 2011. 
His blood was being drawn in his prison multiple times 
recently, which is an indication, usually, of a possible forced 
death. So we need to watch this case and Mr. Chen Xi very 
carefully.
    Finally, I want to also mention the persecution case of the 
family member of one of my staff, Mark Shan and his brother 
Randy Shan, simply for working with China Aid Association in 
the United States. Randy Shan had been persecuted repeatedly 
and had to flee out of China in the summer of 2012. The 
security forces repeatedly threatening Mark Shan to stop, using 
Randy as a hostage to force his brother to not work with China 
Aid.
    My appeal is that the situation for freedom religion, rule 
of law, and human rights in China has continued to deteriorate 
following the 18th party Congress last fall, especially during 
the first 3 months of this year, which is a cause for continued 
worries among the international community. The Xi Jinping 
administration has between in full control over China for a 
month already. And we have not seen any encouraging signs of 
any immediate change.
    And so we need to be alert to help China in the following 
way from Western democracies. For the U.S. Government, we hope 
that it will make more real progress in the next 4 years than 
was the case in the last 4 years. The U.S. President and the 
Secretary of the State ought to have the courage to urge the 
Chinese Government publicly and in unequivocal terms to improve 
its record on human rights and the rule of law. And to adopt a 
standard that stresses the value of universal human rights.
    The U.S. Embassy can officially request permission to visit 
prisoners of conscience in prison and it can meet regularly 
with the family members of these victims, not waiting for them 
had to escape from China to come here to meet. And also to meet 
with human rights defenders who are still active in society and 
provide necessary help. In future human rights dialogues, 
strategic and economic dialogues, and dialogues with experts in 
the rule of law in other major diplomatic activities in the 
coming months, the U.S. Government should grasp these 
opportunities to unequivocally point out the problems in 
China's human rights record and the rule of law and actively 
assist the Chinese Government in implementing real reforms in 
these areas. We harbor great hope for this.
    And, finally, I ask that the committee to enter in the 
record China Aid's 2012 Annual Report on the Chinese Government 
persecution of Christians and churches in Mainland China. Thank 
you very much.
    [The prepared statement of Pastor Fu follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Fu, thank you very much. Without objection, 
all of your full statements and materials you want added to the 
record will be made a part of the record. And, again, I want to 
thank you because without you, we would have never heard Chen 
Guangcheng's voice when he was in a hospital room at the 
hearing last year. So thank you so very much for your 
leadership and your testimony, and again, for making that 
possible.
    I would like to now ask Geng He if she would provide her 
testimony.

 STATEMENT OF MS. GENG HE, WIFE OF CHINESE HUMAN RIGHTS LAWYER 
                          GAO ZHISHENG

    [The following testimony was delivered through an 
interpreter.]
    Ms. Geng. Dear Congressman Smith, chairman of the 
Congressional Human Rights Commission, members of Foreign 
Affairs Committee and guests, greetings. Let me express my 
thanks to the Congress forgiving me this opportunity at this 
meeting to speak on behalf of my husband, Gao Zhisheng, a human 
rights lawyer in China. Let me also express my thanks, my 
gratitude to everyone here for showing concern to Gao 
Zhisheng's case.
    In 2005, Gao Zhisheng began to defend the persecuted 
Christians, Falun Gong adherents, and other persecuted groups. 
Because of this, the Chinese Communists shut down his law 
office and revoked his lawyer's license.
    One day in August 2006, the police illegally kidnapped him. 
On December 22, 2006, they sentenced Gao Zhisheng to 3 years in 
prison with also 5 years' probation on the charge of inciting 
to subvert the state power. During the 5-year probation, Gao 
Zhisheng was kidnapped and made to disappear by the Chinese 
police at least six times. Among this, the longest 
disappearance lasted 20 months. Each time he disappeared, he 
suffered torture.
    In September 2007, Gao Zhisheng wrote an open letter to the 
U.S. Congress in which he exposed human rights abuses of the 
Chinese Communist authorities. Because of this, the Communist 
police put a black hood on Gao Zhisheng's head and kidnapped 
him, making him disappear. And he was missing for 50 days. On 
the same day they kidnapped him, this time they took him to a 
room, stripped him naked, and brutally beat him. They also hit 
him all over his body and his genitals with electric batons, so 
much so that his body shook violently and the skin on his body 
became black. The torture made him lose his consciousness, and 
he had urine incontinence as a result.
    At the time police smoked Gao Zhisheng's eyes with 
cigarettes and inserted a toothpick into his penis. After that, 
and lawyer Gao implored them to lock him in the prison to avoid 
further torture, but the police officer said, ``Do you want to 
go to prison? Do it in your dream. Whenever we want you to 
disappear, we will do so.'' In fact, that is what they did.
    Now Gao Zhisheng has been brutally persecuted for 7 years. 
In this 7 years, the police have lived in my house to supervise 
me and my children. They didn't allow my daughters to attend 
school, and they even besieged me and my daughter--and beat 
both of us.
    I want my children to be able to go to school. I took them 
with me and escaped from China to the U.S. in January 2009 with 
the help of some friends. In February 2009, Gao Zhisheng was 
again kidnapped.
    In April 2010, 14 months after Gao Zhisheng disappeared, 
the Chinese Government made an arrangement for him to accept an 
interview with the Associated Press. During the interview, he 
didn't talk as the Chinese Communist Government instructed him. 
Instead, he exposed and described in detail how he suffered 
torture. After that, the Chinese Communist police officers beat 
him for 2 days and 2 nights with the handle of a pistol. 
According to Gao Zhisheng, it was the most brutal torture that 
he ever suffered till then, and his life hung thinly in the 
air.
    Just a few days after the interview with the Associated 
Press, Gao Zhisheng again disappeared. In December 2011, 4 days 
before Gao Zhisheng's 3-year probation was due, Xinhua News 
Agency of the Chinese Communist party published the news, in 
the next 3 years Gao Zhisheng would be locked up in the prison. 
After that, at the end of 2011, Gao Zhisheng was secretly 
transferred to the far away Shaya County Prison in Aksu 
District of Xinjiang.
    In the 1 year and 4 months Gao Zhisheng was detained in the 
prison, family members have seen him only twice, and each time 
the visit lasted only 30 minutes. There was a period of 10 
months between the first visit and the second visit. During the 
visit, the police prohibited the family members to ask any 
information about him.
    August 27, 2012, his elder brother authorized two lawyers, 
Li Subin and Li Xiongbing, to meet with Gao Zhisheng, but their 
request was rejected by the prison authorities. As you all 
know, Gao Zhisheng has always been a political prisoner of 
conscience under the strict control of Chinese Communist 
authorities. I am very concerned that the torture and the long-
term detention pose a very serious threat to his life. I hereby 
call on the international community to persist in paying 
continuous attention to attorney Gao Zhisheng, as this is 
probably the greatest protection it can offer to Gao.
    Today, the Chinese tyrannical Communists are still brutally 
persecuting the Chinese people. The miserable experience of Gao 
Zhisheng, Hu Jia, Guo Feixiong, Guo Quan, Xu Wanping, Wang 
Dengchao, and others is clear evidence of the persecution by 
the Chinese Communists. These brutal facts have demonstrated 
that the Chinese people don't have human rights, rule of law, 
freedom, or democracy. I hope the international community can 
rescue the above-mentioned people as it did to Guangcheng. 
Thank you.
    Mr. Smith. Ms. Geng He, thank you so much for your 
testimony.
    [The prepared statement of Ms. Geng He follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. And I think all of us will redouble our efforts. 
We have never ceased. People on this panel, members of the 
House and Senate. Certainly the administration has to do more 
because your husband--your tenacious appeal on his behalf has 
been stunning. And we thank you, I thank you on behalf of all 
of us for that.
    Mr. Genser.

            STATEMENT OF MR. JARED GENSER, FOUNDER, 
                          FREEDOM NOW

    Mr. Genser. Thank you so much. Good afternoon, Chairman 
Smith, Ranking Member Bass, Congressman Weber, Chairman Wolf as 
well. Thank you for the opportunity to speak to you today about 
the ongoing persecution of Chinese lawyers and their families 
in China. The work of this subcommittee highlighting the plight 
of individual victims of human rights abuses around the world 
is absolutely essential. And I want to beginning by thanking 
all of you for your principled support for prisoners of 
conscience.
    Mr. Chairman, I am particularly pleased to be here with my 
friends, Pastor Fu and T. Kumar, and human rights heroes and 
champions Geng He and Chen Guangcheng. They, unfortunately, 
represent flip sides of the same coin. Geng He is here as the 
wife of an imprisoned Chinese rights lawyer, while Chen 
Guangcheng, himself a rights advocate and former prisoner of 
conscience, is now advocating on behalf of his own family and 
their ongoing persecution by Chinese authorities.
    As founder of Freedom Now, a legal advocacy organization 
that works to free prisoners of conscience around the world, 
and as international pro bono counsel to both Chen Guangcheng 
and Geng He, my testimony today will highlight briefly the ways 
that China's ongoing persecution of both the two of them and 
their family members violates international law. And, more 
importantly, I am actually going to focus my testimony today on 
what specifically the Obama administration can do and what more 
the Congress can do to try to bring an end to the suffering of 
these courageous people and their families.
    As you know, Gao Zhisheng is one of the most prominent 
rights lawyers in China. What he and Geng He have been through 
has been absolutely horrific. I am not going to go into it in 
much detail; it has been described in a lot of detail here. But 
I want to highlight in particular the persecution that Geng He 
and her children have been through. After Gao Zhisheng was 
detained and disappeared and horrifically tortured, and then 
released, his wife and children were persecuted extensively. 
And this included persecuting their then 10-year-old daughter 
Grace, who was taken to school every day by four or five 
Chinese security officials who sat in her classroom every 
single day, who insulted her in front of the class, who 
followed her into the restroom and made her--a man made her--a 
Chinese security official made a 10-year-old girl keep the door 
open to the bathroom while she went to the bathroom, to 
humiliate her. And told people in the class that if any of them 
let her use their cell phone that they could go prison and 
there is nothing that the school or their families would be 
able to do for them.
    Putting this kind of pressure on a 10-year-old girl as a 
way to get after her father is not only beyond the pale, it is 
horrific and inhumane in every sense of that word. This is the 
reality of the Chinese Communists today, and this is the 
reality of the fear that the Chinese Communist party and the 
Chinese Government has of their own population, particularly 
talented rights lawyers like Gao Zhisheng, who, despite losing 
most of his cases, tenaciously stood up for human rights 
victims and pressed incredibly hard for their rights to be 
secured.
    Chen Guangcheng's story is also well known. And what he has 
been through and what his wife and child have been through is 
also horrific. Living in rural China with no education to speak 
of, he began as a rights advocate advocating initially on 
behalf of local people with disabilities who were being taxed, 
in violation of Chinese law. He then moved on, as has been 
discussed extensively here, to advocating for women who were 
victimized by China's one-child policy through forced abortion 
and sterilization. And by exposing the horrors of the one-child 
system and how it was implemented in China, he himself became a 
target and has become a hero to the international community and 
to anyone in China who knows what he has done to try to stop 
the ongoing abuses of the one-child system. But the fact that 
since he escaped to the U.S. Embassy and in the Chinese 
Government's view, embarrassed them, that they then came into 
his family compound where many of his family members live, this 
was not--to be very clear, this was not the police. This was 
government-sponsored thugs and local party officials who came 
into their home, destroyed everything in front of them, looted 
and stole things, beat up most of the people there. Initially, 
took away his brother, who was only returned 24 hours later 
after being tortured, and then came and arrest and came close 
to killing his nephew, Chen Kegui, who reacted by grabbing a 
knife for only the prospect of self-defense.
    When you have five government-sponsored thugs in your 
house, on your property, and several of them are yelling, 
``Kill him, kill him,'' under those circumstances, what can 
anybody do? What can anybody do? I am a human rights lawyer; I 
believe in nonviolence. But under those circumstances, when you 
have people yelling to kill you, and they are in your own home, 
I don't know what else anyone can do but pick up a knife and 
try to save their own lives. And he didn't even injure people 
in any serious manner. Nobody was even hospitalized. One guy 
had a scratch. But, I mean, at the end of the day, this was 
clearly self-defense. And, of course, they wouldn't have even 
shown up at the family compound but for the fact that 48 hours 
earlier, Chen Guangcheng had courageously and extraordinarily 
escaped from his home to Beijing.
    It is an amazing, amazing story. But the striking feature 
of these cases is that they demonstrate how Chinese authorities 
act with impunity, violating the fundamental rights of their 
citizens. As a country of 1.2 billion people, and a government 
that is one of the most powerful governments on Earth, how can 
a government that is so powerful feel so weak and so afraid 
that they are afraid of people like Chen Guangcheng and Gao 
Zhisheng? And what they need to do is they need to come down on 
them with the full weight of the state, not only on them as 
rights advocates, but on the backs of their families to crush 
them. How can a government that claims to be so powerful be, in 
fact, so weak?
    And even worse, when human rights defenders seek help from 
competent legal counsel in a country that claims to abide by 
the rule of law, their own lawyers get targeted. Indeed, as 
long as the government is not held accountable for the 
continued detention and mistreatment of rights defenders and 
their families, we can only expect these violations to 
continue. When we consider the most important metric, the 
freedom of Gao Zhisheng and Chen Kegui, one can only conclude 
that the Obama administration's approach on Chinese human 
rights has not achieved the results that these families 
desperately deserve, and that its tactics have to change.
    This family is especially striking because of the special 
duty our country owes to both of them and their families 
because they reside here in the United States and they are here 
with the protection of the United States.
    In the absence of progress on these cases, it is my view 
that the Obama administration has to increase the pressure. For 
example, we requested that President Obama personally meet with 
Geng He and Chen Guangcheng during their visit to Washington. 
In my view, such a meeting would send a clear, unequivocal 
message that the continued of targeting of rights lawyers and 
their families by Chinese authorities would no longer be 
tolerated by the international community. I was disappointed, 
frankly, to receive a response from the White House which 
indicated to me that, instead of meeting at the White House, it 
was recommended that we go to the State Department and meet 
with officials at the State Department.
    And my response to that reply from the White House was to 
say that I didn't consider it to be a serious response. And the 
reason I don't consider it to be a serious response is, to 
their credit, the State Department has been pressing in a range 
of ways on both of the cases in Chen Guangcheng and his nephew 
as well as on Gao Zhisheng's case. Indeed, Secretary Clinton 
raised Gao Zhisheng's case publicly, calling for his release.
    Former Assistant Secretary Mike Posner was relentless on 
Gao Zhisheng's case. Obviously, the State Department was able 
to negotiate Chen Guangcheng's release, to its credit, 
ultimately. But at the end of the day, it is quite clear and 
very apparent, and very sad to say, that without executive 
leadership from the President of the United States, I fear that 
people like Chen Guangcheng and Geng He and their families will 
not obtain the relief that they so desperately need. I wish I 
could say that this was the only time I have been disappointed 
with the White House. But, unfortunately, I have had similar 
experiences on other cases. I serve as international counsel to 
Liu Xiaobo, who won the 2010 Nobel Peace Prize. His wife, Liu 
Xia, has been under house arrest for more than 2 years, since a 
week after Liu Xiaobo won the Nobel Peace Prize.
    This past December, we initiated a major action on their 
behalf. We had 134 Nobel laureates, across all six disciplines, 
reaching out to Xi Jinping, the incoming Chinese President at 
this time--this was this past December 4. And saying to Xi 
Jinping, you need to understand, we, these 134 Nobel laureates 
across all six disciplines, the one commonality between us 
all--we have all achieved extraordinary things in different 
fields, but the one commonality among us all is that without 
freedom of expression, without freedom of association, without 
the creativity that a free society provides us, we could not 
have achieved what we have achieved in our respective careers. 
And we consider Liu Xiaobo one of us.
    We asked President Obama to sign on to that letter. As you 
will recall, he won the Nobel Peace Prize himself. And, 
unfortunately, we never received a response from the White 
House for that request. And the request that we had to the 
White House to speak out publicly against Liu Xia's ongoing 
house arrest has never been responded to as well.
    At the end of the day, ultimately, without executive 
leadership, I do not think that the Chinese will take our 
concerns about Chinese human rights seriously. I understand we 
have many important issues with the Chinese Government. I 
understand that there are huge economic, social issues, 
cultural issues, intellectual property, Iran, North Korea, I 
could go on with a long list of concerns. But it seems to me 
that even during the Soviet Union and the Helsinki process, we 
were able to walk and chew gum at the same time. We were able 
to talk about nuclear issues, economic issues, human rights 
issues, and we were able to engage in all of those discussions 
simultaneously with the Soviet Union.
    And it seems to me that that is precisely what we need to 
do with respect to the People's Republic of China. And until we 
act consistently and unequivocally and repeatedly and publicly 
to make clear our concerns about Chinese human rights, we will 
not get the results that we want.
    The last thing that I will note is that one of the other 
ways that we could be more creative would be by working 
multilaterally, something that we haven't seen. Working on 
Chinese human rights issues, at least, up front and publicly we 
haven't seen it.
    As an illustration, Baroness Ashton of the European Union 
is going to China at the end of this month to discuss a whole 
range of issues. We have never seen any public statements from 
President Obama and Baroness Ashton or President Obama and, for 
instance, Francois Hollande, the French President, and David 
Cameron, the British Prime Minister, publicly saying to the 
Chinese Government, ``Release Liu Xiaobo, release Liu Xia, 
release Gao Zhisheng, release Chen Kegui.'' It seems to me 
that, at a minimum, we should at least be able to privately 
engage in these conversations with the Chinese Government and 
say, if we do not start to see the progress that we need, we 
are going to have no choice but to speak publicly about these 
issues. At least we can privately say that to the Chinese. But, 
sadly, I have not seen an indication or a willingness of the 
White House to be willing to even take those private actions. 
So, in conclusion, it is my view that until a clear, 
unequivocal, and consistent message on human rights is 
delivered to the Chinese Government with benchmarks, timelines, 
and consequences for inaction, we should not expect its 
behavior to change. Thank you very much.
    [The prepared statement of Mr. Genser follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Genser. Excellent 
comments and I look forward to asking some questions.
    Mr. T. Kumar.
    Mr. Kumar. Thank you very much, Chairman Smith. First of 
all, I would like to insert our statement.
    Mr. Smith. Without objection, so ordered.

STATEMENT OF MR. T. KUMAR, DIRECTOR OF INTERNATIONAL ADVOCACY, 
                     AMNESTY INTERNATIONAL

    Mr. Kumar. Thank you. Amnesty International is extremely 
pleased to testify here. And we would like to recognize your 
leadership, Congressman Smith, over the years on a number of 
countries, not only in China. And today, one of your activism 
produce results, and we are seeing Chen here. We strongly 
believe that the hearing you had here where we also testified, 
his testimony from the hospital bed, changed the tide. 
Secretary Clinton was in China. It was not sure that the U.S. 
would take the leadership in asking for his release and 
bringing him here over to U.S. And the hearing you had made a 
difference. So thank you, Congressman Smith.
    We also like to express our appreciation to Congresswoman 
Bass, and Amnesty International is looking forward to working 
with you. And thank you for inviting us to testify. We can't 
conclude this hearing without bipartisanship. We can't have 
active human rights legislation or even pressure without having 
bipartisan leadership. And we are glad to see it is working out 
here.
    Before I go into detail, I would like to summarize Amnesty 
International's research over the years and what the current 
situation in China is. First of all, there is a system called 
``Reeducation Through Labor'' camps under which tens of 
thousands of Chinese citizens have been imprisoned without 
charge or trial. Simply at the whim of local police officers.
    That particular system is encouraging police officers and 
the government officials to silence critics and also silence 
non-practitioners and others. So Amnesty International is 
campaigning to ensure that that system is abolished, and we 
want Congress to take the leadership as well. Because they have 
not gone through any fair trial before they have been 
imprisoned. They were just imprisoned without charge or trial. 
And the labor conditions are extremely sad; 16 hours a day, 
they have to work forced labor.
    The second that relate to Chen is the treatment of human 
rights defenders and lawyers. These are the human rights 
defenders who get abused purely because they are standing up 
for others' rights. In this case, more or less, it is for one-
child policy and they are trying to bring justice to the 
victims. It is not only the human rights defenders have been 
abused, their families have been targeted, which we heard here. 
So it is a practice that Chinese have been taking on and going 
after not only human rights defenders, but also their families.
    Third is the death penalty. China executes more people than 
the rest of the world combined, after unfair trials. As you are 
aware, Congressman, we oppose death penalty everywhere, 
including in this country. So we are having a major campaign 
again around the world to abolish death penalty. Because more 
so, it is the victims are poor and marginalized communities.
    And then the other issue is the one-child policy, abuses 
committed in one-child policy. We have document that women have 
been forcibly aborted and forcibly sterilized purely because to 
maintain that one-child policy quota. Even though the Chinese 
Government has instructions, allegedly, instructions to say 
that you should not forcibly abort or sterilize women, that 
practice is going on.
    We have never seen even one prosecution or one punishment 
of a government official who was involved in forced abortion 
and sterilization. That is a challenge everyone can put to the 
Chinese, that if you are serious about stopping abuse, 
prosecute people who have been involved in this practice, which 
Amnesty International has documented years after years of 
forced abortion and sterilization.
    Then there is torture. People have died in prisons in 
hundreds, mostly Falun Gong, as well as Tibetan and Uyghur, 
mostly Uyghur from Xinjiang. And finally the plight of 
religious minorities there, or religion, per se. Any religion 
that is not been recognized by the government and any followers 
have been abused, detained, and tortured. Catholic church 
members who have connections to Vatican have been singled out 
and abused. Then we have Tibetans, which we have seen years and 
years.
    Now the situation has come to such an end, over 100 people 
have burned themselves, self-mutilated them, out of 
desperation. What the Chinese Government is doing is trying to 
contain the demonstrations coming out rather than addressing 
the root causes of what the grievances there are in Tibet.
    Then we have Uyghur, Uyghur Muslims. They were singled out 
again. They have been called terrorists because, unfortunately, 
they belong to--they practice a faith called Islam. Hundreds 
have been detained. Even Rebiya Kadeer's son is still 
imprisoned there. The only mistake he did was to born as a son 
of Rebiya Kadeer.
    So what can we do? Human rights organizations can report, 
campaign, lobby. But in the U.S. there are two branches that 
can be very active. One is a Congress, which we believe you are 
doing the right thing, including this hearing. Then the other 
one is the administration. There is a golden opportunity for 
the administration that is going to come less than a week now. 
Secretary Kerry is going to visit China this weekend. This is 
his first visit as Secretary of State. He should make sure that 
he sets the right tone about human rights while he is there. He 
should speak up. He should mention to Chinese leaders, both 
privately and publicly, that they should abide by the 
international standards.
    It is not the United States' standards, Chairman, they are 
the international standards that U.S. should advocate. Failure 
to do that will send the wrong message to the Chinese leaders 
that United States and in exchange, the international community 
is not concerned about the way Chinese Government treats its 
own citizens. The U.S., as one of the five members of the 
permanent members of the U.N. Security Council have a special 
responsibility. And also China is a permanent member of the 
Security Council. U.S. is a member of the Human Rights Council, 
U.N. China is a member of the Human Rights Council.
    So the U.S. have all the right to speak up and to put 
markers there. We hope Secretary Kerry will not lose this 
golden opportunity by speaking up. When he speaks up in China, 
he is not only speaking up to the leaders of China, he is 
speaking to the people of China. Human rights, by the end of 
the day, it is about the people's rights. The only things that 
we are asking Secretary Kerry to champion are the rights of the 
people of China. One thing that we want to point out is that if 
Secretary Kerry fails to speak up in a meaningful manner, he 
will lose all his moral credibility to speak about human rights 
in any other countries. So he should, and we expect him to 
speak up. We will know in a week's time whether he is up to 
that task. And he is the Secretary of State who can rise up to 
the occasion and speak up about human rights abuse, not only 
against the weak countries and poor countries, but also to the 
powerful countries.
    In conclusion, Amnesty International thank you again for 
holding this hearing. And we believe these hearings will have 
enormous impact in affecting U.S. foreign policy and also send 
a strong message to countries around the world that U.S. values 
human rights.
    Thank you very much for inviting me.
    Mr. Smith. Mr. Kumar, thank you very much for those very 
strong words. And, certainly, since you have been here on so 
many other countries, your consistency is greatly appreciated. 
So thank you so much for that.
    [The prepared statement of Mr. Kumar follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. I would like to just ask a few questions and 
yield to my colleagues. I want to assure Mr. Chen that we will 
follow up on your request to get all relevant data and 
documents concerning your situation as it was in China. And we 
will ask the Oversight and Government Reform Committee to do 
likewise. But also the Foreign Affairs Committee. So thank you 
for that request.
    I do hope the press takes very keen note of this. Back in 
1984, I offered the first amendment conditioning United States 
contributions to organizations as to whether or not, if they 
were involved with forced abortion or forced sterilization, 
they would be precluded such funds. That morphed into what 
became known as the Kemp-Kasten language, which is the current 
law of the land.
    Earlier in this hearing, one of my colleagues mentioned 
that UNFPA had an unblemished record. I think the documentation 
couldn't be more clear that we have aided and abetted, by 
aiding and abetting an organization, it is on the ground, 
implementing Chinese law, which is a one-child-per-couple 
policy, which relies on what they euphemistically call social 
compensation fees, huge, ruinous fines, up to 10 times both 
husband and wife's salaries--no one can pay them--or bribes or 
having a child on the run. Which some women are able to do.
    The Financial Times did a report on March 15 pointing out 
that there have been more abortions, and most of those are 
forced, in China, than there are people in the United States of 
American. Three hundred and thirty million.
    Mr. Chen mentioned a moment ago about the 130,000 forced 
abortions in his small area. I would--and your list which you 
lifted up and held for our look, which will be made a part of 
the record, we will send to the administration and ask them to 
enforce the law. We have a law--I wrote it--in the year 2000 
that says anyone who is complicit in forcing a woman to abort 
her child, or a man or woman to undergo a sterilization, is 
made inadmissible into the United States of America. You cannot 
get a visa. We asked the Congressional Research Service to look 
into it to see how many times it has been implemented, it is 
less than 30.
    So, Mr. Chen, your list becomes, I think, a blueprint for 
action, an engraved invitation for the administration to look 
at those individuals and bar entry into the United States of 
anyone who has committed such violence against women and 
children pursuant to the law. Just enforce United States law. 
It is on the books; I know because I wrote it. So I would hope 
that that would be the case. So I look forward to following up 
with your list, Mr. Chen, to see if the administration will do 
that.
    Let me ask just a couple of things. You know, Mr. Genser, 
you mentioned that we basically risked super power 
confrontation with the Soviet Union by ensuring--and you, Mr. 
Kumar, said it as well--that human rights were central, a main, 
central pillar of U.S. foreign policy. All of us were greatly 
chagrined when Hillary Clinton said in route, first trip to 
Beijing, I am not going to let human rights, ``interfere with 
global climate change and other issues.''
    So as long as it is put askance or aside and 
compartmentalized, human rights will not be seen by the Chinese 
Government as being something we absolutely cherish and will 
fight to the end for.
    I would respectfully submit we would be working much closer 
with the Chinese on North Korea had we insisted, as you pointed 
out, clear consistent, unequivocal support for human rights, 
Mr. Genser, we would have a greater partner in standing up to 
the tyranny of the new leader, the new leader in Pyongyang.
    Human rights pay dividends in far more ways than just 
helping great individuals like Gao Zhisheng and Chen Guangcheng 
and others who have suffered so much for freedom and human 
rights. It has great positives in other areas as well.
    We will follow up on all of these things as you have 
recommended. Try anew with the administration. Hope springs 
eternal. My hope is that they will grab this and run with it. 
It is in the interest of the suffering people of China. It is 
also in global interests. Because we have seen in Africa and 
elsewhere, because this subcommittee covers Africa and human 
rights globally, global human rights obviously applying to 
China and everywhere else, but we have seen that the bad 
governance model of China is being exported as well. People 
like Bashir in Sudan love the Chinese model of dictatorship and 
secret police; you don't have to worry about the messy details 
of democracy and checks and balances.
    So I would like to yield to Ms. Bass.
    If you would like to comment on any of that, any of our 
distinguished witnesses, or I will yield for some other 
questions.
    Ms. Bass. Thank you, Mr. Chair. I do have some questions. 
But before I get there, though, I feel I must follow up in 
terms of the testimony that was given by my colleague, 
Congressman Bera. Because I believe what he was referring to 
was, first of all, I think he very strongly articulated that he 
was opposed to China's one-child policy and was opposed to 
forced abortions under anybody's policy. But that he was 
talking about support for the United Nations Population Fund. 
And he was making a distinction by saying that no government 
should intrude in the right of a woman to control her own body. 
So I just want to state for the record that that is what he was 
referring to.
    Mr. Smith. The gentlelady would yield?
    Ms. Bass. Sure.
    Mr. Smith. Very briefly. But there have been findings 
repeatedly, probably the most comprehensive one was done by 
Secretary Negroponte back in 2008. And pursuant to Kemp-Kasten, 
which very simply says that no funds for any organization that 
supports or co-manages a coercive population control program, 
that it couldn't have been more clear in their finding that the 
U.N. Population Fund had so violated U.S. law and then, 
therefore, was ineligible for U.S. funding. Because the UNFPA 
at the end of the day enforces--is part of, it is integral 
because they do also provide training to the one-child-per-
couple policy. And it relies, that policy, on coercion to 
achieve its ends.
    Ms. Bass. Okay. I, again, just want to state that I do 
believe that my good colleague, who is a new member of the 
House, was not in support of that policy, and I believe he made 
that very clear.
    Moving on, though, I did want to ask a few questions of Mr. 
Genser. You know, you were talking about what the 
administration should do, you know, in terms of being more 
forceful. And I am also a relatively new Member of Congress, I 
am in my second term. And I was wondering if maybe you could 
talk about some past administrations in regard to China and 
what they might have done. And so, twofold, I am asking about 
past U.S. administrations, but I think you also reference 
several other countries. And so if you look at other major 
international powers, what have they done in regard to taking 
on China and its policies?
    Mr. Genser. Sure. Well, thank you, Ranking Member Bass for 
the question. I think it is an important one. Let me respond to 
the two parts in turn. The first is I have been at this as a 
human rights lawyer for about a dozen years in Washington. For 
me, not surprisingly, this is not a partisan question, this is 
a human and human rights question. And what I try do is just 
speak to it as I see it, as any administration goes, and as any 
Republican or Democrat goes on human rights questions. So there 
are champions on human rights in the House that are, of course, 
Democrats and Republicans.
    Ms. Bass. I am sorry, just--not human rights in general. I 
am referring specifically to China's policies that we are 
discussing today.
    Mr. Genser. Understood. I think that all administrations, 
all White Houses, in my experience, only goes back a couple of 
White Houses, have some hesitance at advocating for human 
rights. But I can speak based on personal experience, 
particularly to the George W. Bush administration, the 
difference in approach between the Bush administration and the 
Obama administration. I represented for 5 years an imprisoned 
Chinese dissident Yongchun Li. He was imprisoned for 5 years. 
His wife and kids were American citizens. So it became a very 
high profile case here in the Congress.
    We had at one point 112 Members in Congress going on one 
letter to George W. Bush asking him to raise the case to 
Chinese President Hu Jintao. He did that. And it was announced 
publicly that he had done that. And ultimately, although it 
took a lot of work and a lot of time, Yongchun Li was released 
from prison and is now back here in the United States with his 
family. You know, I think that the optics from where I sit are 
just different between different administrations.
    I think that George W. Bush very much enjoyed meeting with 
dissidents and having their views heard and speaking publicly 
about what he experienced. Unfortunately, I haven't seen 
President Obama take the same approach. He has, as far as I can 
tell, and as far as I have observed over the last 5 years, one 
meeting over the course of the last 5 years with about a dozen 
dissidents at one time, on one occasion.
    It seems to me that whenever the President travels abroad, 
particularly when he is engaging with countries that are not 
allies of the United States in every sense of that term, that 
it is very important to send the view to the world that he 
understands and is concerned about the suffering of the people 
in that country, even thought the U.S. has very different kind 
of interests associated with that country.
    So I don't fault the President personally for saying, you 
know, we have a lot of interests with China and we need to be 
careful where we tread. And I do agree with Chairman Smith and 
with those who would say that we need to be consistent and 
coherent and deliver the message from all quarters of the 
administration that China human rights matter and are 
important.
    And so what I would say is, you know, this administration's 
record, in my view, is not as strong as the prior 
administration on raising China human rights matters.
    Ms. Bass. And other----
    Mr. Genser. I don't think it is too late to change that----
    Ms. Bass. Sure. Could you comment, because I want to move 
on.
    Mr. Genser. Of course.
    Ms. Bass. Could you comment about other major powers what 
you see them doing?
    Mr. Genser. Sure. I think there are mixed messages, I 
think, from other major powers. I mean, I think that, you know, 
we will see what Baroness Ashton does at the end of the month. 
But the EU has spoken up publicly about Liu Xiaobo and Liu 
Xia's case and in my experience much more than the United 
States has, as the European Union. And individual member states 
of the EU, particularly, the United Kingdom have been outspoken 
publicly.
    I am not following every country in the world 
simultaneously, of course, so I can't speak to a lot of 
details. But I would just say that, you know, everybody can do 
more. So my criticism is not lodged exclusively at the United 
States. It is saying, if we want human rights to actually 
matter and we want the Chinese Government to view human rights 
as something that is actually a concern of ours, if we don't 
deliver that message consistently, we are not going to get the 
results that we want.
    Ms. Bass. Thank you. I think this question--I am sorry. Go 
right ahead, Mr. Kumar.
    Mr. Kumar. Is that okay if I comment on that issue?
    Ms. Bass. Sure.
    Mr. Kumar. Amnesty International believes that U.S. 
Government should incorporate human rights in all its 
activities, all its interactions with Chinese Government. For 
example, they have dialogued with the Commerce Department, the 
Defense----
    Ms. Bass. They dialogued with--I am sorry?
    Mr. Kumar. Defense, Commerce, everyone should have a brief 
on human rights. It is not only the Human Rights Bureau at the 
State Department that should talk about human rights. Unless it 
cuts across every department, they are not going to take it 
seriously. They know this is kind of a--for the sake of doing, 
U.S. doing.
    And there is also innovation. There are two dialogues that 
U.S. is having with China. One is U.S./China human rights 
dialogue. Every year, they talk. The other one is U.S./China 
economic and security dialogue. We are urging U.S. Government 
for years to make sure, don't single out human rights, just 
incorporate that human rights into economic and security 
dialogue. So it should be called economic, security, and human 
rights dialogue. Then only they will get the message. They are 
not going to get the message it is only human rights dialogue.
    So there are lots of things U.S. can do without getting 
permission from China, without getting any concern about China. 
Only from this end they can do, which they are not doing.
    And the issue of major powers, it is a reality, U.S. is the 
only superpower. And it is a reality that the only country that 
can meaningfully pressure China is U.S. There are maybe a group 
of countries like European Union that can ever put their act 
together and come with a strong message. So U.S. has a special 
responsibility when it comes to China. It may not be a special 
responsibility if some other countries, the other countries can 
take on. But we need to come to China, the U.S. should take the 
leadership along with other countries. Again, it is not 
lecturing China, it is about urging China to ensure, to respect 
the internationally recognized human rights norms and 
practices.
    Ms. Bass. Thank you. You know, I know a reference had been 
made to Secretary Clinton's trip over to China, and I think in 
her tenure as Secretary of State she was certainly known for 
her leadership on women, women's rights around the world, and I 
certainly recall numerous times when she pointed out the abuses 
in China, but moving on, I wanted to ask a couple of other 
questions.
    I believe Mr. Chen had made reference to the reeducation 
through labor system, and I know that there are, there have 
been some proposed reforms to that system, and I just wanted to 
know if you--I believe it was you that was referencing that, 
and I wanted to know if you thought the reforms had done 
anything at all, I mean the fact that the labor camps exist, I 
don't really know how you reform them. It seems like they would 
need to be eliminated. But the Chinese Government have talked 
about proposed reforms. What reforms were those supposed to be? 
I am sorry, it was Pastor Fu that had mentioned that.
    Pastor Fu. Thank you. The reeducation through labor system 
is really the most extrajudicial evil law in the land of China, 
and the Chinese Government is basically using that practice to 
primarily target those so-called soft crimes, meaning political 
dissidents, the members of the underground church, the Falun 
Gong practitioners, and of course other democracy activists. 
Basically, the Chinese security chief can make you lose freedom 
up to 4 years without going through any judicial review, I mean 
without going through any other branches, like the court or 
prosecutors review. Of course, there is a mechanism that said 
you can continue to appeal. Rarely you can win any of these 
cases. Basically many people were sent to these labor camps and 
forced to work sometimes up to 18 hours a day in these labor 
camps. As you mentioned, the Chinese Government from this year 
ironically the minister of public security, the former minister 
was Mr. Meng Jianzhu made that announcement this year, the 
beginning of this year by saying China actually will stop the 
reeducation through labor system, but then the Chinese official 
news reports actually corrected him by saying the Chinese 
Government is seriously considering to reform the reeducation 
through labor.
    Ms. Bass. So they made him retract his statement?
    Pastor Fu. Yes. And of course there are a few provinces 
make the announcement by the provincial security heads, I 
believe including Gui Zhou make that public that they will 
suspend the practice, which means they were not using that 
system to imply to the other, to those people subject for 
reeducation through labor, and of course, you know, I am very, 
very hopeful because this evil practice has been so long and 
offended so many innocent people and has been--make so many 
families suffering so much, I think the whole China, even those 
Communist Party affiliated scholars and numerous legal 
scholars, even some members of the People's Congress in the 
judicial committee publicly advocate for abolition of this 
system, and I hope this will happen in reality, and I also hope 
the Communist Party, all the People's Congress by finally 
suspending or abolishing this system would not find another 
system to substitute for their extrajudicial activities for 
targeting those people.
    Thank you.
    Ms. Bass. And then final question to Mr. Chen. I wanted to 
know what your plans are when you return to China. How do you 
expect to be treated and how is your family doing?
    [The following testimony was delivered through an 
interpreter.]
    Mr. Chen. I have not thought about that too much, and now 
in the U.S., I just want to continue to push for human rights 
in China. I just wanted to add that on the reeducation through 
labor camp, before they actually added a clause to the law that 
they could actually beat the people and then force them--they 
could make the person disappear without notifying their 
relatives for 6 months.
    Ms. Bass. It says that in the law?
    Mr. Chen. It says it in the law. This starts from January 1 
this year.
    Ms. Bass. Okay, thank you.
    Mr. Smith. Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman, and thank each one of 
you for your testimony. I wanted to follow up. Most of what it 
sounds like today is that we just need to continue to highlight 
this particular issue. I have been following it for some 20 
years and find it amazing that some of the testimony that has 
been given today is just very disturbing and even with someone 
who has been following it closely for that length of time, and 
yet at the same time highlighting the issue seems like that is 
what we need to continue to do. The chairman of this very 
committee brought this issue up with the Secretary General of 
the U.N., and I was somewhat concerned in his facial and his 
response to act like he didn't even know about these atrocities 
that are going on, and so I want to commend the chairman for 
bringing that up in that environment.
    But Mr. Kumar, let me start with you if I might. In your 
testimony you mention the importance of having Secretary Kerry 
remember his audience. I think is in your written testimony 
that you talked about when he travels to China and that the 
audience is not just the Chinese Government, but the people of 
China. What, in light of social media and some of the other 
things that get out, what do references to human rights 
violations and democracy, do they garner any special attention 
among the Chinese people?
    Mr. Kumar. Yeah, there are even though there are so many 
restrictions being placed. For example, even in text messages, 
human rights and democracy cannot be texted, that is what we 
heard. So there are ways people are getting, but Secretary 
Kerry speaking out is totally different from every Chinese 
citizen's getting information about human rights from human 
rights organizations or others. Secretary Kerry's first trip 
and during his first trip, if he fails to speak up in a 
meaningful manner, then Chinese people will feel that U.S. as a 
country--I am very careful to say that U.S. should not lecture, 
they should only insist on international standards.
    Mr. Meadows. So am I hearing you--let me interrupt for just 
a second. So what you are saying is the most important thing 
that Secretary Kerry could do on his trip coming up in just a 
few days is to highlight this particular issue diplomatically 
but make sure that they know the importance that he and this 
administration places on human rights violations?
    Mr. Kumar. Yes. But he has to send a message to the leaders 
as relates to the people of China is that U.S. considers 
economic relationship and human rights and security and 
environment at the same level. That is the message.
    Mr. Meadows. What you are saying is tying the economic and 
the human rights together.
    Mr. Kumar. Yes.
    Mr. Meadows. For example, we have a manufacturing plant 
here in the United States, we wouldn't tolerate these kinds of 
human rights violations----
    Mr. Kumar. Abuses.
    Mr. Meadows [continuing]. Within our own borders, so how 
dare we import other economic goods from China when we are 
tolerating it there, is that what you are saying?
    Mr. Kumar. Yeah, that is what exactly I am trying to say.
    Mr. Meadows. All right. So what do you think are the hopes, 
and I would give this to you, Mr. Kumar, and then Mr. Genser as 
well, what do you think the hopes that clear kind of message 
will be articulated in the coming days?
    Mr. Kumar. The host will accept because they expect U.S. to 
speak up, and one example that we have seen U.S. leadership 
that provided results is Mr. Chen.
    Mr. Meadows. Right.
    Mr. Kumar. If not for U.S. leadership, Chen will not be 
here. U.S. leadership came, to my opinion, if not for the 
special hearing that was held here when Mr. Chen was testifying 
from his hospital bed.
    Mr. Meadows. So is it your opinion that the other two that 
we have highlighted today in terms of the testimony that are 
held in prison, that their release is only dictated by the 
leadership of this particular government speaking out on that 
behalf and that if they don't speak out, those folks will not 
be released?
    Mr. Kumar. U.S. should take the leadership, other countries 
should join, but U.S. should take the leadership. As I 
mentioned in my opening remarks, U.S. is the only superpower 
left, so the U.S. as a superpower should also have 
responsibilities in terms of speaking out. Not speaking out 
will send the extremely wrong message to the leadership and to 
the people at large.
    Mr. Meadows. Thank you, Mr. Kumar. Mr. Genser.
    Mr. Genser. Sure. Well, let me just make two brief comments 
in response to your question. My first public recommendation to 
Secretary Kerry, which he could do privately when he goes in 
several days, is he could privately bring a copy of the op-ed 
that Chen Guangcheng and Geng He had in the Washington Post 
asking for a meeting with the President, and he could say to 
the Chinese leaders, help us help you, right? We don't want to 
have this meeting between Chen Guangcheng and Geng He, but we 
are under a lot of pressure here in Washington. There was a 
hearing on Capitol Hill, there was an op-ed in the newspaper, 
we need to some progress on these cases. We have mentioned 
these cases publicly and privately over many, many years, and 
we haven't seen progress, and people are getting impatient, so 
we want to give you a private opportunity to get that done. Now 
that is something he could do very concretely in the next 
several days that I think if he were to deliver that message we 
would start to see some movement on these cases.
    And then the second and last thing that I would just say is 
that it is also very, very important from where I sit to not 
just talk about human rights at 100,000 feet and talk about the 
need for advancing the rule of law. This is what the Chinese 
love to do, they love to come to these bilateral human rights 
dialogues and they love to sit there in those rooms, and in 
essence what we have is sequential monologues with both sides 
talking past each other, and the Chinese issue a press release 
and say this was a wonderful dialogue that we engaged in, and 
it is the dialogue itself which is the outcome, but from where 
I sit that is not the outcome. The outcome is are we seeing 
progress in a bunch of ways? And yes, of course, progress can 
come by changing laws in ways that are compatible with 
international law, and I am not trying to discount the 
importance of it, but I think we always need to be focusing on, 
like we have today, a handful of actual live people's cases and 
people's lives where you can have a clear and unequivocal 
benchmark with large photographs of people, and are they or are 
they not still in prison? And if they are, the tactics that we 
are deploying by definition have failed, and we need to think 
about new tactics.
    Mr. Meadows. Do you think that there is a clear 
understanding with the Chinese Government that we are not 
asking them to abide by U.S. law but just by U.N. guidelines? 
Do you think there is a clear understanding of that?
    Mr. Genser. I think the problem is that the Chinese receive 
different messages from different actors in the United States, 
and the messages from within the administration, from the State 
Department and the White House aren't the same, the messages 
from the Hill are different, depending on who you talk to, and 
I think that unfortunately a lot of people in China and the 
Chinese Government think that human rights is somehow a sword 
to use to get political advantage and not something that is 
consistent with our values, and the only way that they are 
going to perceive it differently--to be clear, I am not 
justifying that perception because I do think it is fundamental 
to our core values, to our Constitution, to our Declaration of 
Independence, but I do think that the only way that we can 
combat that perception is, as Kumar was saying, by consistently 
raising it to the Chinese Government across all the different 
aspects of the relationship, and it is only when we do that 
consistently across the executive branch and the legislative 
branch that the Chinese will understand that we take it 
seriously, but if we are going to start censoring ourselves and 
be afraid of raising human rights to the Chinese for fear that 
they might, you know, not give us what we need on other 
important issues, then if I were them, I probably also wouldn't 
take all that seriously our concerns about human rights.
    Mr. Meadows. Mr. Chairman, do I have time for two more 
questions? Okay. Let me go on a little bit further with that 
because it is all about the message, and as I think has been 
pointed out, you made pretty straightforward actions that the 
Obama administration could take in order to promote human 
rights in China including a meeting between, you know, the 
President and the distinguished guests that we have here today. 
You know, can you explain the reluctance that the White House 
has in why this meeting has not taken place, given the kind of 
visibility that we have with Mr. Chen here today and Pastor Fu 
and et cetera?
    Mr. Genser. Obviously, I work as pro bono lawyers for the 
two distinguished guests here, so I can't answer for the White 
House. I will say there is a genuine reluctance on most White 
Houses' parts to be viewed as doing things that are provocative 
to important partners of ours on multiple issues, but, again, I 
think that they are not looking at it the right way. I think 
that they need to look at the fundamental values that are 
important to us as a country to have a true north which is 
grounded in our Declaration of Independence and our 
Constitution and to implement policy on the basis of our 
fundamental values, and that means that at times we are going 
to have to do the thing that isn't politically expedient but 
that is consistent with our values, which is speaking up for 
human rights. If it is only about what is politically 
expedient, human rights is almost never going to be a priority 
for this country.
    Mr. Meadows. Well, do you believe, and I would ask this of 
Mr. Kumar as well, do you believe if the American people as a 
whole knew the kind of atrocities that have been highlighted 
here in this hearing plus others that have not been covered, do 
you think that they would see that and have an economic revolt, 
as Mr. Kumar said, they have to be tied together, do you see 
that the American people would speak up?
    Mr. Genser. You know, I do think so. Louis Brandeis said 
that sunlight is the best disinfectant, and I think that sadly 
for most Americans there isn't much attention paid to what is 
happening 10,000 miles away, whether it be China human rights 
or what is going on in Darfur or a whole long list of the 
situation in Syria, you could go through a long list of things 
that the average American isn't familiar with. I think that 
these issues are so extraordinary and the persecution of these 
two individuals and their families is so beyond the pale, and 
if the United States of America as what I believe right now is 
the most powerful Nation on Earth can't stand up for the most 
persecuted people in those countries, Liu Xiaobo, Liu Xia, Gao 
Zhisheng, you know, Chen Kegui. If we can't stand up for those 
people who are most persecuted because we are afraid of our own 
interests on other matters with China, then who is going to 
stand up for these people? And I think that is really just the 
fundamental bottom line.
    Mr. Meadows. Would you agree with that, Mr. Kumar?
    Mr. Kumar. Yes, I agree, and I believe generally overall 
U.S. citizens are aware of the situation purely because of 
Tiananmen Square massacre that took place over 20 years ago.
    Mr. Meadows. Right.
    Mr. Kumar. But we as an international human rights 
organization also have major campaigns. We have about 700,000 
members in this country, we have hundreds of high school and 
college chapters. We also campaign on human rights issues, 
including human rights issues in China. So we believe the 
people of the U.S. get the message, and that is why we are 
confident that there will be change in the U.S. policy as well.
    Mr. Meadows. All right. So last question, Mr. Chairman. If 
we have, one is communicating to the American people. The 
second part of that is getting this message out to the Chinese 
people that would know that, and there are reports that clearly 
indicate that China spends billions of dollars, truly billions 
of dollars employing over 100,000 people to monitor and to 
really try to make sure that the Internet is not a public 
place, and we see that. Would you think that the best peaceful 
means of trying to get that message out to the Chinese people 
would be to make a significant priority of circumventing those 
firewalls that are there to monitor on the Internet?
    Mr. Kumar. Obviously yes. That is why Congressman Smith 
introduced the Global Online Freedom Act, which is to prevent 
U.S. corporations from helping countries around the world, 
including China, from using U.S. technology to block 
information flow and also monitor peaceful dissent within the 
country. So that dissent is an essential aspect of freedom of 
expression where any country should be allowed to do and U.S. 
can push for that.
    Mr. Genser. I would agree as well. I mean, I think that 
there are literally dozens of things that could be done to try 
to advance human rights in China if we had both the political 
will and the consistent commitment to actually make those 
things happen, and I think that it is really only a matter of 
our own imagination. One other issue that I will mention as 
well is, you know, the 25th anniversary of Tiananmen Square is 
coming up June 4, 2014, and I would love to see, you know, for 
example, a Congressional Gold Medal resolution introduced to 
honor, let's say, a half dozen Chinese dissident heroes to be 
able to put pressure on the Chinese Government to secure the 
freedom of these kinds of individuals and others and to be able 
to have an event where the President of the United States and 
both Houses of Congress would stand in solidarity with the 
Chinese people. They say a picture is worth a thousand words. 
That kind of a picture would be worth much more than that.
    Mr. Meadows. Well, my thank you.
    Mr. Chen. Hold on.
    Mr. Meadows. Okay, Mr. Chen.
    [The following testimony was delivered through an 
interpreter.]
    Mr. Chen. I am sure that many Chinese netizens and Chinese 
people know that we are here for this hearing. Probably not as 
many because of the great firewall in China. The amount of 
money the U.S. invested in information is not proportionate 
compared to how much the Chinese invest in forbidding its 
people from using the Internet. We need to invest and break 
down the great firewall so that the Chinese people can freely 
speak. With the free flow of information it would be harder and 
harder to deceive Chinese people.
    Mr. Meadows. Well, I want to thank each one of you for 
coming in for your boldness in testifying and illuminating this 
issue, and I thank Mr. Chairman for this very worthwhile 
hearing, and I yield back.
    Mr. Smith. Mr. Meadows, thank you for your incisive 
questioning and commentary. Mr. Weber.
    Mr. Weber. Thank you, Mr. Chairman. Earlier in the remarks 
figures were quoted that there were 330 million forced 
abortions and there were 130,000 I think abortions in Mr. 
Chen's area, and I don't remember who made those remarks. The 
chairman did? Gotcha. What is the time period? Since 1979.
    Pastor Fu. 2000. Oh, you mean the first number, the 330 
million?
    Mr. Weber. Right.
    Pastor Fu. Yes, that was since 1979 when the one-child 
policy was carried out.
    Mr. Weber. Okay.
    Pastor Fu. And the number for 130,000 cases, that was 
documented by Mr. Chen, that happened only within a 6-month 
period of time in his city alone.
    Mr. Weber. Right. So it is interesting to me that--thank 
you, Mr. Chairman--amidst the discussion of human rights 
violations that a major plank in our discussion is the taking 
of innocent human life, that would be unborn babies. So would 
you all agree that part of your reason for being here is to 
stop those atrocities and that we would include those as a 
basic human right as well? Would you all agree with that?
    Pastor Fu. Absolutely. And I would like Mr. Chen to also 
answer that question, too.
    [The following testimony was delivered through an 
interpreter.]
    Mr. Chen. Forced abortion is definitely a human rights 
issue. No mothers want to kill their own children. This is 
definitely dictated by the Central Communist Party because the 
Communist Party is above the law, so nobody can sue the Chinese 
Communist Party.
    Mr. Weber. Well, thank you. The point I am driving to, of 
course, is that it is a basic human right. Life is a basic 
human right, and we have had a lot of discussion here today 
about our country and the values that we have. I am glad to 
hear you all including that in your discussion today. It 
doesn't matter whether the government forces the taking of that 
innocent human life or, in my opinion, whether the mother takes 
an innocent human life, the outcome is that an innocent human 
life is taken. So I am glad that we have made that distinction.
    Pastor Fu, you mentioned in your discussions that the U.S. 
Embassy can request permits to meet with those prisoners of 
conscience. Is there a list of the prisoners of conscience?
    Pastor Fu. Yes. The U.S., I think, even the Congressional-
Executive Commission on China (CECC) has a very comprehensive 
list, and of course for specific cases, those family members. 
If for any Member of Congress, if any of the Cabinet or 
ministry officials want to visit China or visit these family 
members when they are in China, we would be glad to facilitate, 
we would be glad to provide the most accurate information in 
terms of location, names, contact information. I think this 
should be part of the systematic and persistent effort and all-
out effort not only by congressional leaders but also by all 
levels of the bilateral exchanges with China. For instance, Mr. 
Zhu Yufu, the prisoner I just mentioned who is dying in his 
prison, we have his prison address, we also have the wife's 
phone number, her next visit to Mr. Zhu is April 13.
    Mr. Weber. How many prisoners of conscience would you say 
that list entails? Is it 1,000, 10,000?
    Pastor Fu. It is thousands, yes, thousands of names.
    Mr. Weber. Thousands?
    Pastor Fu. Yes, yes.
    Mr. Weber. And so it is probably too much to ask that 
Secretary of State John Kerry would even entertain that idea? 
Have you all made that request to the State Department?
    Pastor Fu. My organization, we have not made that request 
yet.
    Mr. Weber. Okay, let me jump over to Mr. Kumar. Have you 
all made that request of the State Department?
    Mr. Kumar. We urged Secretary Kerry to meet with the 
families of some of the human rights defenders. But he is going 
to be there only for a day, less than a day actually.
    Mr. Weber. Did you get a response from him?
    Mr. Kumar. Not yet.
    Mr. Weber. How long ago was that request?
    Mr. Kumar. We had a meeting about a week ago and we 
verbally asked him.
    Mr. Weber. Okay. And Mr. Kumar, you also talked about 
Secretary John Kerry, putting some pressure on him, and then I 
was glad to hear my colleague Mark Meadows' comments about 
social media and trying to build that awareness. Of course, I 
am aware of what I guess we could now call the great firewall 
of China. No longer the Great Wall, but the great firewall of 
China--how they are intending to keep out all of the Internet, 
as much social media as they can. Do radio signals, for 
example--from South Korea, do they reach into China or do they 
block those?
    Mr. Kumar. I have no idea. I know Voice of America usually 
have live discussion, TV. I don't know whether they get 
interrupted or not.
    Mr. Weber. Mr. Genser, you said in your remarks, and I 
don't mean to end on a pessimistic note, but I believe you said 
we should--pretty much you ended with we should not expect 
their behavior to change?
    Mr. Genser. Well, I would echo what Chairman Smith said. I 
am an eternal optimist about human nature and about what we can 
ultimately achieve if we put our minds to it. This actually 
isn't very complicated, it is actually quite simple, it is 
acting consistently with our values. So on the one hand I would 
say that White Houses past and present tend to hedge when it 
comes to these kinds of issues, ultimately there is a lot that 
could be achieved and the President has 3 more years in office, 
and we will continue to urge him to move forward and to raise 
these issues, and we will continue to be persistent about it.
    Mr. Weber. Well, that is what I want to encourage you to 
do. The public discourse and the public pressure, I didn't want 
you to be too discouraged. I wanted you to continue that.
    Now let me ask a question of you since I have got you here 
at the microphone. Why should China care what the U.S. says to 
them about human rights? Why should the Chinese Government 
care?
    Mr. Genser. Well, look, as an international human rights 
lawyer, what I would say is that China has signed major 
treaties that they want the United States to abide by. For 
example, you know, acceding to the World Trade Organization and 
rules of trade, and international human rights law is equally 
binding on China as international trade law. At the end of the 
day if they want to be a reliable partner for the United 
States, if they want to attract foreign investment, then 
foreign investors want to know that they can have certainty in 
their domestic courts system if there is a dispute.
    Mr. Weber. Are you saying that, as Mark Meadows kind of 
alluded to, that maybe we should have trade laws that keep 
Americans from investing in China when they have an abysmal 
record, especially when it comes to intellectual property 
rights?
    Mr. Genser. Look, that is sort of a more complex and longer 
discussion, but what I would say is that it is important to 
hold China to account for their adherence to their 
international law obligations, and it is in China's interest, I 
believe, that the law be consistently applied, and they want it 
to be when it comes to their issues, and we are going to want 
it to be when it comes to ours. So, you know, I don't think it 
actually behooves the Chinese Government, for example, you 
know, to have a court system that is not independent and 
impartial because it makes foreign investors less interested in 
investing there. If you have a court system that is independent 
and impartial, it can help not only businesses invest and be 
certain about outcomes but also help human rights victims as 
well.
    Mr. Weber. Pastor Fu, why should China care what we think?
    Pastor Fu. I think I will echo my colleague attorney Jared 
Genser is saying. Moreover, it is the values, it is the 
universal values, and if a government that ultimately 
disregards its own citizens' basic dignity and rights, and how 
could they expect to be respected.
    Mr. Weber. Okay. I think I know what you are getting to--
let me highlight that. A government that disregards the 
sanctity of life, I would call it a basic human right, the 
dignity of that person.
    Pastor Fu. Yes.
    Mr. Weber. What can we do to put pressure on them to 
recognize that and change? What is the answer here?
    Pastor Fu. I agree with the recommendations. I think the 
President of the United States of America should speak and 
stand firmly, publicly, unequivocally, and persistently that 
the human rights issue is not Americans' concern, it is a 
universal concern.
    Mr. Weber. Well, I wouldn't hold my breath for that to 
happen, but I think you are getting to the very crux of the 
matter, and I am sorry we are getting a little short on time. I 
would like to direct that same question----
    Pastor Fu. As I suggested, I think we have some concrete 
steps we recommend; for instance, with the U.S. Embassy, the 
Ambassadors or consular general, they can make requests to meet 
with those victims or these prisoners and to visit the prison, 
even if they are not granted.
    Mr. Weber. At least it brings it to bear, it brings the 
sunlight that Brandeis talked about. Let's go to Mr. Chen, if I 
may, with the same question.
    [The following testimony was delivered through an 
interpreter.]
    Mr. Chen. I think we shouldn't just ask whether or not it 
is useful to express our concerns to the Chinese Government 
because on one hand they do commit the human rights abuses, and 
they will turn around and look at how the international 
community reacts, and then if they see that the international 
community does not react, they will think that, okay, they 
don't really care about human rights, they are just saying it. 
So we should definitely bring out this consistent message. I 
should give an example. In terms of freedom of speech, the 
number of American journalists in China is only a little bit 
over 100. That means the ratio is 10 million Chinese citizens 
to one American journalist. And the central propaganda 
department of China has about 800 journalists in the United 
States. That is about one journalist to 300,000 U.S. citizens. 
We see that there is an inequality. They could advertise in the 
big TV screens in Times Square, but can we do that in Tiananmen 
Square? Certainly not. So if we do the right thing, we should 
not be afraid that we will anger the dictators. If we invest in 
breaking down the great firewall, we can certainly do it, and 
then the Chinese citizens will have this free flow of 
information, and the government can no longer deceive the 
people.
    Mr. Weber. Okay, and one last question, if I may, Mr. 
Chairman, for Mr. Kumar from Amnesty International's viewpoint, 
is our country the only one that is being called upon to pay 
attention and to make its voice heard?
    Mr. Kumar. I am not saying U.S. is the only country. U.S. 
is the only superpower, so it has its own responsibilities.
    Mr. Weber. Let me follow that up, then, by saying, does 
Amnesty International, do they reach out across the globe to 
other countries? Are there other organizations? Is there a fund 
mechanism so that people that care and get involved and want to 
make a difference and make their voice heard, is that going on?
    Mr. Kumar. Oh, yeah. We are in existence from 1960 onwards, 
and we have about 3.2 million members around the world, and in 
about 85 countries we have activities like what I am doing 
here.
    Mr. Weber. Okay.
    Mr. Kumar. We lobby, we urge different countries around the 
world, a lot of Asian countries, we are talking about China, 
Japan, Korea, Philippines, small countries like Nepal, 
everywhere our members are campaigning for the rights of 
individuals around the world, including in China. So we are a 
global movement. We are supposed to be--I am here, so that is 
why I am testifying about U.S. foreign policy. My colleagues in 
Nepal will be testifying and calling upon Nepalese Government 
to take on China about human rights abuses, but the reality is 
U.S. is the only superpower, so we have to recognize that.
    Mr. Weber. All right, and last question, what is your Web 
site?
    Mr. Kumar. www.amnestyUSA.org.
    Mr. Weber. www.amnestyUSA.org?
    Mr. Kumar. Thank you, sir. I appreciate your comments.
    Mr. Weber. Thank you. You bet.
    Mr. Smith. Thank you very much. Let me just ask a couple of 
final questions. Again to Mr. Chen, if you could, with regards 
to your nephew Chen Kegui, has the administration sought to 
visit him? Has anybody within our Embassy sought to go and 
visit him in prison?
    [The following testimony was delivered through an 
interpreter.]
    Mr. Chen. I am sure no. The answer is no.
    Mr. Smith. With regards to other members of your family, 
has the U.S. Embassy been in touch with your brother, your 
mother who is now 80, I believe, just celebrated her birthday, 
has there been contact with other members of the family 
expressing concern, especially not just to them but to the 
Chinese who would monitor such a meeting?
    Mr. Chen. In fact, I don't think that any people from the 
Embassy visited them. I never heard anything about that. In 
fact, my family is still under persecution. They have several 
groups of people, I don't know how many groups are there, but 
each group consists of 16 people. They are constantly there, 
constantly persecuting my family members.
    Mr. Smith. Are you in touch with them? Can you speak to 
them on the phone, your family?
    Mr. Chen. Yes, I have talked to them on the phone, but for 
sure the phone lines are monitored, and in fact after my 
conversation with them some of them were taken to the local 
police station and they were threatened, and then they were 
asking my relatives what was the content of the conversation 
that you guys had. In fact, they also spread rumors to the 
local authorities, they said that Chen Guangcheng in America is 
actually monitored more closely by the U.S. Government than 
when he was in China.
    Mr. Smith. Mr. Chen, a minute ago Mr. Weber brought up a 
very good point about how do we convince the Chinese, why would 
they even listen to us. Would it be your thought that, this is 
for any of the distinguished witnesses, that while moral 
suasion and speaking out very clearly and unambiguously is 
important, it is also important that there be linkages to other 
things? I will give you an example. We are doing a letter right 
now to Secretary Kerry asking that they properly find China to 
be what we call a Tier III country, an egregious violator of 
human trafficking. I wrote the law in 2000 called the 
Trafficking Victims Protection Act. We set up tiers. Tier III 
is the worst, and it carries with it a series of sanctions that 
could be imposed if the executive branch so wills it in order 
to try to mitigate this horrible practice of modern day slavery 
called human trafficking.
    As a direct result of the one-child-per-couple policy and 
the missing girls, we know that there are tens of millions of 
girls who have been slaughtered in the womb simply because they 
happen to be female. When allowed only one, it has put an 
unbelievable pressure on having just a male, and it has led to 
a gendercide of little girls. But now we are seeing the 
horrific consequences over time of men unable to find wives 
simply because they have been systematically eliminated through 
this one-child-per-couple policy and this gendercide 
consequence. China now has become probably the largest magnet 
for trafficking. We are seeing it not just the North Koreans, 
who have been trafficked, and I have had several hearings on 
that, but we are seeing this rising problem, and this letter 
which will be sent to Secretary Kerry very shortly calls on 
China being named a Tier III country.
    In like manner, under Mr. Wolf's law, the International 
Religious Freedom Act, China has been designated a country of 
particular concern, or CPC country, and that carries with it 18 
prescribed actions, the least of which would be a demarche, but 
all kinds of other sanctions that can be imposed. They are not 
draconian, but they are significant. And there has been no 
sanctioning of China, even though as you pointed out, Pastor 
Fu, there is an actual plan to eliminate the house church 
movement over a 10-year period, I believe it is over a three-
phase plan. I wasn't as aware of it until you laid it out in 
your testimony. They want to eliminate the house church 
movement. When Mr. Wolf and I went to China right before the 
Beijing Olympics, we sought to meet with several pastors. Every 
one of them except one was arrested before they could meet with 
us, and the one we did meet with was brought in after the fact, 
interrogated, and beaten by the Chinese secret police simply 
for meeting with two Members of Congress, and now you are 
talking about the new plan to eradicate the Christian church 
movement. It seems to me the administration has two right at 
hand ways of showing their extreme displeasure for trafficking, 
Tier III designation, which comes shortly, as well as CPC, 
which they already have, but should now take the next step.
    I would agree, with you, T. Kumar; you were in the trenches 
when we were fighting the battle to link Most Favored Nation 
status with human rights. Bill Clinton linked them and it was, 
I think, a very good linkage with respect to what the human 
rights benchmarks had to be. Sadly, 1 year later, on a Friday 
at 6 o'clock o'clock or so in the afternoon, he ripped up his 
own Executive Order, and that was when we lost China, I 
believe, or lost much of it in terms of human rights. The 
administration said profits trump human rights.
    So we do have two things at hand, if you might want to 
speak to that, any of you, because I think moral suasion is 
important, but I think we need to have some real tools and 
levers.
    Mr. Chen. There is much we can do. For example, when U.S. 
journalists apply for a visa at the Chinese Embassy, they may 
tell the U.S. journalists that we don't need American 
journalists there. We can actually do the same thing to Chinese 
journalists applying for visa to the United States. If we give 
them the impression that human rights is only a secondary 
issue, the human rights issue in China will continue to worsen.
    Mr. Smith. Could I ask, is it Mr. Chen's belief that the 
Obama administration has made it a secondary issue? And Mr. 
Kumar, if you would speak to that, and Pastor Fu.
    Mr. Chen. This is how I feel, yes, in fact. But I think 
that human rights should not be just part of a diplomacy issue. 
It should be diplomacy in itself.
    Mr. Smith. Pastor Fu.
    Pastor Fu. When we talk about the delinkage between trade 
and human rights, it reminds me about how the U.S., these 
transnational or U.S. large corporations' social and moral 
ethics and their social responsibilities. I think if the Apple 
or the Google or especially these large corporations in China 
if they operate in a way that just be compatible with the 
international human rights standards, I think the human rights 
in China would not come to this far, this worse in China.
    Just back to the end of last year Mr. Chen and I, along 
with another American investor from New York City, we sent a 
letter to Mr. Tim Cook, the CEO of Apple, and requested a 
meeting to just brief him and ask him about how the factories 
in Apple enforce the one-child policy in their own factories to 
the women and men working there, and today unfortunately we 
have not heard a single response, and instead we heard and we 
have seen after the CFO or COO of Apple went to China to 
apologize to the Chinese consumers and at the same time or the 
same day in Apple's application there is a classic literature 
library. All the so-called sensitive books on the Chinese 
Government blacklist were taken off from their shelves, 
electronic shelves, and these are books written by Tibetan or 
Uyghur writers, very prominent writings, and so it makes you 
think what had happened behind the scenes, and I think that is 
a shame.
    Mr. Smith. Now just one question.
    Mr. Kumar. Go ahead.
    Mr. Smith. This would be to you again, Mr. Chen. In an 
interview that you did just a couple days ago, you underscored 
just how brutal the one-child-per-couple policy was, and you 
pointed out something that you asked that the press take note 
of, that while some may be under the impression that forced 
abortions only happen to those who have had more than one 
child, it is simply not true. If a family hasn't obtained a 
birth permit, whether it is their second or first child, the 
women are kidnapped and taken to a hospital where they are 
forced to have their babies killed. You point out that some of 
these are done in the eighth and ninth month of their 
pregnancies and that you literally have to get permission, this 
is your quote, from the government to have your own child, even 
the one, and I think that is not largely recognized by a lot of 
people. They tell you when and if you can have your one.
    If you wanted to comment on that. These are your quotes, of 
course, but, Mr. Chen, please do.
    Mr. Chen. Even though official figure says there are only 
500,000 people participating in forced abortions, but that is 
probably around 2 million. Because in China they have this rule 
that if the party secretary cannot do this well, the forced 
abortion in terms of a one-child policy, he cannot continue in 
his post. In order to meet the quota they not only abort the 
second child or third child but also the first child in order 
to meet the quota, in order to have a child needs to acquire a 
permit from the government. If they don't give it to you, you 
can bribe them with money.
    Mr. Smith. Is there anything else any of our distinguished 
witnesses would like to conclude with? Mr. Kumar?
    Mr. Kumar. I am fine.
    Pastor Fu. Just a final word on this issue. When China just 
proudly announced their achievement of the last 40 years 
population control and announced that 330 million abortions 
prevented, children from being born. Everybody knows most of 
them were forcefully aborted. This is almost the entire 
population of today's United States of America who were wiped 
out basically, and I think this is perhaps the single most 
horrible human rights violation and atrocity on this Earth in 
the history of human beings. I think we should certainly pay 
more attention and continue to urge the Chinese Government to 
stop this policy. In the past year we know there are several 
high profile cases that called attention by some Chinese 
citizens. Even some Chinese Government affiliated scholars 
publicly advocate to abandon this one-child policy, and for the 
long run, as the Mr. Chairman pointed out, with the gender 
imbalance, the human trafficking, all this, even the 
ramification for the economic problems is not going to be 
sustainable even for the best interests for China itself.
    Mr. Smith. I do want to thank all of our distinguished 
witnesses. Chen Guangcheng, thank you for your extraordinary 
bravery. I can assure you that Chen Kegui will be a primary 
focus of this chairman, but I know we will be working side by 
side with members on both sides of the aisle, Democrat and 
Republican, on his behalf and on behalf of your family. To 
speak out so bravely when you know your family has suffered so 
much should inspire each and every one of us to do much more 
than we have d1 months or years to date. So thank you for 
inspiring us as well.
    The hearing is adjourned. Did you want to say something?
    Mr. Chen. Thank you.
    [Whereupon, at 5 o'clock p.m., the subcommittee was 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


     <F-dash>\<Hoarfrost><acctof><careof>t<star><ellipse><ellipse>
   <gr-thn-eq><pound><script-l><bullet> stat<box><acctof><box><Rx>t\

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<r-because><brit-pound>a<Rx><bullet><star><star><box><Rx><bullet>
                      <F-dash><func.-of><Register>\

Material submitted for the record by Mr. Chen Guangcheng, Chinese human 
                            rights activist

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      <F-dash>\<F-dash><brit-pound> <F-dash><func.-of><Register>\

    Material submitted for the record by Pastor Bob Fu, founder and 
                    president, ChinaAid Association

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
